<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2006 budget request for programs 
within the subcommittee's jurisdiction.]

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit testimony on the fiscal year 2006 appropriation 
for the National Science Foundation (NSF). The ASM is the largest 
single life science organization in the world with more than 43,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and for economic and 
environmental well-being.
    The NSF is the premier source of Federal support for scientific, 
mathematic, and engineering research and education across many 
disciplines. NSF plays a critical role in supporting the health of the 
Nation's research and education system, which is a principal source of 
new ideas and human resources in science and engineering. Although NSF 
represents less than 4 percent of the total Federal funding for 
research and development, it accounts for approximately 13 percent of 
all Federal support for basic research and 40 percent of non-life-
science basic research at U.S. academic institutions. NSF's broad 
support for basic research, particularly at U.S. academic institutions, 
provides not only a key source of funds for discovery in many fields, 
but also unique stewardship in developing the next generation of 
scientists and engineers. NSF is also the primary Federal agency 
charged with promoting science and engineering education at all levels 
and in all settings, from pre-kindergarten through career development. 
This educational effort helps to ensure that the United States has 
world-class scientists, mathematicians, and engineers, as well as, 
educated and prepared citizens.
    ASM appreciates the support that both the Congress and the 
administration have demonstrated for the National Science Foundation 
through enactment of the NSF Authorization Act of 2002 (Public Law 107-
368). Public Law 107-368 authorizes a 5-year period of 15 percent 
annual budget increases for the NSF. Recognizing the current fiscal 
climate, we encourage Congress to increase the funding for NSF in 
fiscal year 2006 to $6 billion, approximately 6 percent above the 
fiscal year 2004 funding level and 9 percent over fiscal year 2005. 
Increasing NSF's budget to $6 billion will allow for additional 
investments in grants, fellowships, and in crosscutting research 
priorities such as Microbial Biology, Nanoscale Science and 
Engineering, the National Ecological Observatory Network (NEON), and 
meet biological infrastructure needs.

                         RESEARCH GRANT FUNDING

    Fundamental research in the biosciences has laid the foundation for 
exploring the human genome and now offers new possibilities for 
understanding the living world from molecules to organisms to 
ecosystems, providing discoveries applicable to meeting national 
health, environmental, agricultural, and energy needs. The fiscal year 
2006 budget request for NSF is $5.61 billion, a 2.4 percent or $132 
million increase over fiscal year 2005. However, because NSF received a 
3.1 percent cut in fiscal year 2005, the overall request for fiscal 
year 2006 would still fall approximately 1 percent below the fiscal 
year 2004 level. Moreover, because NSF is being asked to pay for the 
upkeep of ships used for icebreaking, an expense that formerly was 
borne by the Coast Guard, the net increase for agency programs in 
fiscal year 2006 amounts to only 1.5 percent.
    The success rate for grant proposals submitted to NSF has dropped 
from a level of about 33 percent to below 20 percent, while the number 
of proposals submitted to the agency has increased to more than 45,000 
per year. The projected number of grants funded for fiscal year 2006 is 
expected to remain steady, while the average annual award size will 
also remain level at an estimated $137,000. Increasing NSF's budget to 
$6 billion would allow NSF to increase the size of individual awards 
and also the number of grants awarded.
    The NSF Directorate for Biological Sciences (BIO) provides support 
for research that advances understanding of the underlying principles 
and mechanisms governing life. The fiscal year 2006 budget request for 
the BIO directorate is $581.8 million, an increase of 0.9 percent over 
the fiscal year 2005 level. Research programs range from the study of 
the structure and dynamics of biological molecules, such as proteins 
and nucleic acids, through cells, organs, and intact organisms to 
studies of populations and ecosystems. It encompasses processes that 
are internal to particular organisms as well as those that are 
external, and includes temporal frameworks ranging from immediate 
measurements through life spans of mere minutes for some microorganisms 
to the full scope of evolutionary time. Within the BIO and other 
Directorates at the NSF, programs and priorities of particular interest 
to the ASM include:

                   MOLECULAR AND CELLULAR BIOSCIENCES

    The Molecular and Cellular Biosciences (MCB) Division within NSF 
included several research activities in microbiology that are being 
transferred to the Emerging Frontiers Subactivity for a new emphasis in 
Microbial Biology in fiscal year 2006. The request for MCB core 
research for fiscal year 2006 is $109.8 million, which is a decrease of 
$8.4 million from fiscal year 2005. Although some of this decrease is 
due to activities being transferred, overall decreases in core funding 
will lead to fewer MCB awards in fiscal year 2006.

                    BIOCOMPLEXITY IN THE ENVIRONMENT

    The fiscal year 2006 budget request for Biocomplexity in the 
Environment (BE) is for $30.43 million, which is nearly a 24 percent 
decrease from the previous level. This priority area provides support 
for the Ecology of Infectious Disease, Microbial Genome Sequencing, and 
Assembling the Tree of Life programs, and will help to support a new 
program emphasizing environmental genomics in fiscal year 2006, each of 
which will be managed under the Emerging Frontiers Subactivity. This 
effort to expand multidisciplinary research will result in our 
developing a more complete understanding of natural processes and 
better ways to use new technology effectively to sustain life on earth. 
Increasing NSF's budget would allow NSF to increase its investment in 
the BE effort.

                   NANOSCALE SCIENCE AND ENGINEERING

    The Nanoscale Science and Engineering effort within the BIO 
Directorate faces a decrease of $2 million, or 34 percent, to a total 
of $3.85 million for fiscal year 2006. This effort encompasses the 
systematic organization, manipulation, and control of matter at the 
atomic, molecular, and supramolecular levels. With the capacity to 
manipulate matter at the nanometer scale (one-billionth of a meter), 
science, engineering, and technology are realizing revolutionary 
advances in areas, such as, individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and computer chips. NSF has been a pioneer among Federal 
agencies in fostering the development of nanoscale science. The 
President's request of $127.8 million in fiscal year 2006 for the 
overall Nanoscale Science and Engineering effort remains unchanged from 
the fiscal year 2005 plan.

                   DIVISION OF ENVIRONMENTAL BIOLOGY

    The budget request for the Division of Environmental Biology (DEB) 
for fiscal year 2006 is $107.1 million, an increase of about 1.1 
percent over the fiscal year 2005 plan. DEB priorities for fiscal year 
2006 are to support research on complex ecological systems, including 
aquatic or watershed systems, systematic biology, microbial ecology, 
and invasive species, with particular emphasis on the quantitative 
understanding of complex interrelationships. These efforts will depend 
on biological infrastructure such as advanced instrumentation and 
research collections. Also within DEB, the National Center for 
Ecological Analysis and Synthesis budget is to be increased by 
$350,000.

                       BIOLOGICAL INFRASTRUCTURE

    The budget request for the Division of Biological Infrastructure 
for fiscal year 2006 is for $82.9 million, an increase of about 2.9 
percent over the fiscal year 2005 plan. The fiscal year 2006 budget 
request for the National Ecological Observatory Network (NEON) within 
this program is for $6 million, which is less than a 1 percent increase 
from the previous year and is allocated for planning this program. NEON 
has the potential to transform ecological research. The program calls 
for developing a continental-scale research instrument consisting of 
geographically distributed infrastructure that will be networked via 
state-of-the-art communications to obtain a predictive understanding of 
the Nation's environment. A very large number of scientists, students, 
resource managers, and decision makers could make use of NEON data, 
both directly and indirectly, through the network capabilities and the 
Internet. Increasing NSF's budget to $6 billion would allow NSF to 
increase its investment in NEON.

                           EMERGING FRONTIERS

    The budget request for the Emerging Frontiers (EF) Subactivity for 
fiscal year 2006 is for $85.9 million, an increase of about 16 percent 
over the fiscal year 2005 plan. This increase is partly the result of 
several programs being transferred from the Division of Molecular and 
Cellular Biosciences, including programs that support microbial genome 
sequencing, microbial observatories, research on interactions and 
processes, and training activities. The EF Subactivity includes a 
priority in Microbial Biology for fiscal year 2006, emphasizing all 
levels from the molecular to the ecological. Several programs are being 
transferred from the Division of Molecular and Cellular Biosciences, 
including programs that support microbial genome sequencing, microbial 
observatories, research on interactions and processes, and training 
activities.
    The Microbial Genome Sequencing Program is to be conducted jointly 
with a competitive grants program in the U.S. Department of 
Agriculture. The fiscal year 2006 funding request is for $12.2 million 
for the Microbial Observatories and Microbial Interactions and 
Processes Program to support researchers who are analyzing microbial 
genomic sequence and other data.
    The Ecology of Infectious Diseases is an interagency partnership 
with the National Institutes of Health to support the development of 
predictive models and discovery of principles for relationships between 
environmental factors and transmission of infectious agents. Potential 
benefits include the development of disease transmission models, 
understanding unintended health effects of environmental change, and 
improved prediction of disease outbreaks, including the emergence or 
reemergence of disease agents. Examples of environmental factors 
include habitat transformation, biological invasion, biodiversity loss, 
and contamination.

                BIOENGINEERING AND ENVIRONMENTAL SYSTEMS

    The Bioengineering and Environmental Systems (BES) Division, within 
the Engineering Directorate, supports research that: expands the 
knowledge base of bioengineering at scales ranging from proteins and 
cells to organ systems, including mathematical models, devices and 
instrumentation systems; applies engineering principles to the 
understanding of living systems, development of new and improved 
devices, and products for human health care; improves our ability to 
apply engineering principles to avoid and/or correct problems that 
impair the usefulness of land, air and water, and advances fundamental 
engineering knowledge of the ocean environment and develops 
technological innovation related to conservation, development, and use 
of the oceans and their resources.
    In fiscal year 2004, BES was funded at $51 million, in fiscal year 
2005, it was funded at $48.2 million. The budget request for BES in 
fiscal year 2006 is $50.7 million, 0.6 percent below fiscal year 2004. 
BES plays a vital role in supporting research, innovation, and 
education in the rapidly evolving fields of bioengineering and 
environmental engineering. Increasing NSF's budget to $6 billion would 
allow NSF to increase its investment in BES, supporting technological 
innovations that will advance the global competitiveness of our 
industries and the health of our environment.

                               CONCLUSION

    In addition to adverse impacts on the pace of new scientific 
discoveries, constrained funding has equally important consequences for 
the vitality of the Nation's scientific workforce. Constrained funding 
decreases job opportunities for current and future scientists, and 
reduces the attractiveness of science as a career choice.
    The NSF plays a key role in support of basic science and scientists 
in the United States, and knowledge gained from NSF studies directly 
benefits industry and contributes to the economy and U.S. international 
competitiveness. The NSF is in a singular position among all the 
Federal research and development agencies to support fundamental 
research in a wide range of important areas, including microbiology and 
molecular biology. ASM urges Congress to protect ongoing and future 
U.S. scientific and technological advancements by supporting an 
increase to $6 billion for the fiscal year 2006 budget for the NSF. The 
ASM believes NSF should continue to emphasize fundamental, 
investigator-initiated research, research training, and science 
education as its highest priorities.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers its 
appropriation for NSF for fiscal year 2006.
                                 ______
                                 
    Joint Prepared Statement of the Association of National Estuary 
 Programs; the Coastal States Organization; The Conservation Fund; the 
International Association of Fish and Wildlife Agencies; the Land Trust 
  Alliance; the National Estuarine Research Reserve Association; The 
           Nature Conservancy; and the Trust for Public Land

    On behalf of the organizations listed below, we would like to thank 
you for your long-standing support of coastal zone management and 
coastal land conservation. We are writing today in support of the 
Coastal and Estuarine Land Conservation Program. This subcommittee 
created CELCP in fiscal year 2002 in order to ``protect those coastal 
and estuarine areas with significant conservation, recreation, 
ecological, historical or aesthetic values, or that are threatened by 
conversion from their natural or recreational states to other uses.'' 
Thus far, this program has invested nearly $145 million towards 90 
conservation projects in 23 States. All Federal funding has been 
leveraged by at least an equal amount at the local level. We hope to 
continue this Federal-State partnership and encourage you to fund CELCP 
at $60 million for fiscal year 2006.
    Our Nation's coastal zone is under significant pressures from 
unplanned development. In fact, it is estimated that by 2025, nearly 75 
percent of the Nation's population will live within 50 miles of the 
coast, in addition to millions more who enjoy America's storied 
coastlines. From Maine to Washington State, beaches and waterfronts 
have always been the destination of choice for Americans. Billions of 
dollars of the Nation's GDP are generated by coast-based economic 
activities, inexorably linking our coastal zone with the economic 
health of the Nation.
    As a result of this economic boom, rapid, unplanned development has 
marred the once-pristine viewsheds and substantially reduced public 
access to the coast. The resulting increase in impervious surfaces has 
correspondingly increased non-point source pollution and seriously 
degraded coastal and estuarine waters. The loss of coastal wetlands has 
drastically impaired estuaries, some of the most productive habitat on 
earth. The U.S. Commission on Ocean Policy has also stressed the 
importance of land conservation as part of its broader recommendations 
to Congress and the Nation.
    From our work at the local level, we know from first-hand 
experience that this program will significantly leverage ongoing 
community-based conservation, and will provide a much needed boost to 
local efforts. Given the importance of healthy, productive and 
accessible coastal areas, a Federal commitment to State and local 
coastal protection is a sound investment.
    We urge you to fund the Coastal and Estuarine Land Conservation 
Program at $60 million in fiscal year 2006. We look forward to working 
with you as this program evolves, and stand ready to assist you.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairman and members of the subcommittee, the American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). This frontier research has fueled economic 
growth, mitigated losses and sustained our quality of life. The 
subcommittee's leadership in expanding the Federal investment in basic 
research is even more critical as our Nation competes with rapidly 
developing countries, such as China and India, for energy, mineral, air 
and water resources. Our nation needs skilled geoscientists to help 
explore, assess and develop Earth's resources in a strategic, 
sustainable, economic and environmentally-sound manner. AGI supports 
full funding as authorized for NSF's EarthScope project and Research 
and Related Activities; full funding for NOAA's Tsunami Warning 
Network; authorized support for NIST's and NSF's responsibilities in 
the National Earthquake Hazards Reduction Program (NEHRP) and continued 
support for NASA's Earth observing campaigns.
    AGI supports the Coalition for National Science Funding, which 
encourages increases in total funding for NSF and the NEHRP Coalition, 
which encourages full funding for NEHRP within NSF and NIST. In 
addition, AGI supports funding for Earth science education through 
NSF's Math and Science Partnership (MSP) program. Earth science 
education helped to save lives during the tragic Indian Ocean tsunami 
and will be important for future hazard mitigation in the United States 
and elsewhere.
    AGI is a nonprofit federation of 42 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.

                                  NSF

    We applaud the NSF's emphasis on funding the long-neglected and 
critically underfunded physical sciences and hope that the subcommittee 
shares this commitment to the physical sciences, including the 
geosciences. Enhanced and essential funding should remain broad enough 
to ensure the multidisciplinary nature of today's science, mathematics, 
engineering, and technology research. Congress wisely authorized 
increased funding for NSF in Public Law 107-368, such that the total 
NSF budget would increase to $7.378 billion and the Research and 
Related Activities budget would grow to $5.543 billion in 2005. NSF 
only received $5.473 billion in 2005 and remains underfunded. AGI would 
strongly support an increase of NSF's total budget to $6 billion in 
fiscal year 2006 and we believe that such a wise and forward-looking 
investment in tight fiscal times will pay important dividends in future 
development and innovation that drives economic growth.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of Federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests a small increase of 2.2 percent ($14.9 
million) for a total budget of $709.1 million. Within this directorate 
the Earth Sciences Division's budget would increase 3.4 percent or $5.1 
million from $149.0 million to $154.1 million. AGI fully supports this 
increase to fund EarthScope's operation and maintenance budget. We 
would encourage increases in funding to the authorized level for the 
Research and Related Activities account, to allow NSF to strengthen 
core research by increasing the number and duration of grants. The 
NEHRP Coalition also requests that Congress appropriate the full 
funding level contained in the reauthorization for fiscal year 2006 of 
$39.1 million dollars for NEHRP responsibilities at the NSF.
    NSF Major Research Equipment Account.--EarthScope AGI urges the 
subcommittee to support the Major Research Equipment, Facilities and 
Construction budget request of $50.62 million for EarthScope. Taking 
advantage of new technology in sensors and data distribution, this 
multi-pronged initiative will systematically survey the structure of 
Earth's crust beneath North America, imaging faults at depth, hidden 
faults and other structures that may be hazardous or economically-
valuable. The fiscal year 2006 request includes continued support for 
deployment of three components: a dense array of digital seismometers 
that will be deployed in stages across the country; a 4-km deep 
borehole through the San Andreas Fault, housing a variety of 
instruments that can continuously monitor the conditions within the 
fault zone; and a network of state-of-the-art Global Positioning System 
(GPS) stations and sensitive strain meters to measure the deformation 
of the constantly shifting boundary between the Pacific and North 
American tectonic plates in an area susceptible to large earthquakes 
and tsunamis.
    EarthScope has very broad support from the Earth science community 
and received a very favorable review from the National Research 
Council, which released a report in 2001 entitled ``Review of 
EarthScope Integrated Science''. All data from this project will be 
available in real time to both scientists and students, providing a 
tremendous opportunity for both research and learning about Earth. 
Involving the public in Earth science research will increase 
appreciation of how such research can lead to improvements in 
understanding the environment, utilizing natural resources and 
mitigating natural hazards. EarthScope can also provide a mechanism to 
integrate a broad array of Earth science research data in a unified 
system to promote cross-disciplinary research and avoid duplication of 
effort.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI strongly supports the Math and Science 
Partnership (MSP) program as it has existed at NSF. This is a 
competitive peer-reviewed grant program and funds are only awarded to 
the highest quality proposals. Shifting the MSP program entirely to the 
Department of Education would mean that all MSP funds would be 
distributed to states on a formula basis. This would provide no 
incentive for top researchers to continue to participate in this 
important program and would limit the flexibility of States to target 
areas of greatest need. The NSF's MSP program focuses on modeling, 
testing and identification of high-quality math-science activities 
whereas the Department of Education program does not. The NSF and 
Department of Education MSP programs are complementary and are both 
necessary to continue to reach the common goal of providing world-class 
science and mathematics education to elementary and secondary school 
students. AGI opposes the transfer of the MSP from NSF to the 
Department of Education.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, and water.
  --Geoscience exposes students to a diverse range of interrelated 
        scientific disciplines. It is an excellent vehicle for 
        integrating the theories and methods of chemistry, physics, 
        biology, and mathematics.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. For 
        example, lives were saved in the tragic Indian Ocean tsunami by 
        a 12-year-old girl who understood the warning signs of an 
        approaching tsunami because of her Earth science class and 
        warned others to seek higher ground.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development.

                                  NOAA

    Within NOAA's National Weather Service, some of the proposed 
increases are for improving the U.S. Tsunami Warning Network. President 
Bush requested $24 million over 2 fiscal years ($14.5 million in fiscal 
year 2005 and $9.5 million in fiscal year 2006) to add 32 detection 
buoys (7 for the Atlantic Ocean, Caribbean Basin and Gulf of Mexico and 
25 for the Pacific Ocean), procure 38 new sea level monitoring/tide 
gauge stations, and to provide comprehensive warning coverage. AGI 
supports full funding for this program. AGI also supports the proposed 
increased funding for the development of the geostationary operational 
environmental satellite (GOES-R) and the National Polar-Orbiting 
Operational Environmental Satellite System (NPOESS). Both satellite 
systems will maintain a global view of the planet to continuously watch 
for atmospheric triggers of severe weather conditions such as 
tornadoes, flash floods, hailstorms, and hurricanes.

                                  NIST

    In 2004 President Bush signed the National Earthquake Hazards 
Reduction Program (NEHRP) reauthorization (Public Law 108-360). This 
legislation reauthorized NEHRP for another 5 years and authorized 
$176.5 million in spending spread over four agencies (NIST, FEMA, USGS 
and NSF). As the lead agency, the law says NIST is eligible to receive 
up to $11 million for NEHRP in fiscal year 2006. No funds were 
requested for this program in the President's fiscal year 2006 budget. 
AGI strongly supports $11 million for NIST to carry out its NEHRP 
responsibilities and we further support adequate funding for core 
laboratory functions at NIST to ensure that NEHRP funds are protected.

                                  NASA

    AGI supports the Earth observing programs within NASA. NASA has a 
unique capability to provide observations of our planet. Currently the 
topography of Mars has been measured at a more comprehensive and higher 
resolution than Earth's surface. While AGI is excited about space 
exploration and values aeronautics research to help build better 
aircraft, we firmly believe that NASA's Earth observing program is 
effective and vital to solving global to regional puzzles about Earth 
systems, such as how much and at what rate is the climate changing. 
Among Earth science programs, the Earth Systematic Missions program is 
slated for a $118 million (40 percent) cut, stalling the Glory Mission, 
which was planned to address climate change. We hope this subcommittee 
will be committed to full funding of the Earth Systematic Missions 
program.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 of the 50 States (all 
but Hawaii). Collectively, public power utilities deliver electricity 
to one of every seven electric consumers (approximately 43 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    The Department of Justice's Antitrust Division (DOJ) and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the continuing uncertainty created by wholesale electricity 
restructuring, this oversight is more crucial than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. Specifically, we support the 
administration's request of $212 million for fiscal year 2006 for the 
FTC. However, we urge the subcommittee to carefully consider allocating 
the full $144.5 million requested by the administration for fiscal year 
2006 to provide the U.S. Antitrust Division with the necessary 
resources to enforce U.S. antitrust laws to help APPA's members adapt 
to the ever changing wholesale electricity market.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2006 funding priorities within the Commerce-Justice-
Science Subcommittee's jurisdiction.
                                 ______
                                 
                      Prepared Statement of Oceana

    Chairman Shelby, Ranking Member Mikulski and other subcommittee 
members, on behalf of the more than 250,000 supporters of Oceana, an 
international, non-profit conservation organization devoted to 
protecting ocean waters and wildlife, I submit the following testimony 
on the fiscal year 2006 budget for the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. I request that 
this testimony be submitted for the official record. Oceana urges the 
subcommittee, as it has done in previous years, to significantly 
increase funding for NOAA overall and specifically recommends the 
following for critical ocean research and conservation programs:
  --$42.4 million for fishery observer programs;
  --$4.8 million for the reducing bycatch initiative;
  --$12.5 million for the national undersea research program (NURP);
  --$82.0 million for marine mammal research and management;
  --$15.0 million for sea turtle research and management;
  --$30.0 million for expanding fish stock assessments;
  --$20.0 million for fishery cooperative research;
  --$54.2 million for fishery enforcement, including $9.3 million for 
        vessel monitoring systems; and
  --$8.0 million for National Environmental Policy Act activities in 
        fishery management.
    We are greatly concerned about the impact of the administration's 
request for a $333 million cut (-8.5 percent) to NOAA below existing 
funding levels. The National Marine Fisheries Service is targeted for a 
$95 million cut (-12.0 percent) and the National Ocean Service is 
targeted for a $255 million cut (-38.0 percent). These steep reductions 
do not match the recommendations of the Presidentially-appointed United 
States Commission on Ocean Policy's final report issued last fall. The 
Commission emphasized the importance of taking immediate action to 
conserve ocean and coastal waters, wildlife, and habitats and called 
for substantial increases in our Nation's investments for ocean 
research, conservation, and management. We hope you will follow the 
Commission's advice and strengthen our Nation's commitment to 
sustainable oceans and coasts by increasing funding for the important 
NOAA programs and activities described below.
    Fishery Observer Programs--$42.4 million.--Oceana recommends that 
the fiscal year 2006 budget provide $42.4 million for more effective 
national and regional observer programs. The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds, and other ocean wildlife are caught directly and as bycatch, 
thereby improving management of our fish populations. According to 
NMFS, observers are currently deployed to collect fishery dependent 
data in less than 40 of the Nation's 300 fisheries. Existing coverage 
levels for many of the fisheries with observers are inadequate. In its 
final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to the successful management 
of fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts. More specifically, Oceana recommends $9.0 million 
for the national observer program; $11.0 million for the New England 
groundfish observer program; $7.8 million for the Atlantic Coast 
observer program; $2.0 million to establish a Gulf of Mexico/South 
Atlantic reef fish observer program; $350,000 for the East Coast 
observer program; $3.979 million for Hawaii longline observer program; 
$1.835 million for North Pacific marine resources observer program; 
$650,000 for North Pacific observer program; $800,000 for the South 
Atlantic/Gulf of Mexico shrimp observer program; and $5.0 million for 
the West Coast groundfish observer program. The administration's 
request seeks slightly more than the current funding level of $24.5 
million.
    Bycatch Reduction--$4.8 million.--One of the primary issues 
threatening the future of our fisheries is the catch and subsequent 
injury or death or unwanted fish and ocean life. For the past few 
years, Congress has provided additional Federal support to help address 
the challenges of bycatch. This initiative supports enhanced technical 
solutions and outreach to reduce bycatch, improved cooperative research 
activities with fishermen, and international transfer of technology, 
gear modifications, and fishing practices that benefit domestic 
fisheries that target highly migratory fish species. We would strongly 
encourage the subcommittee to consider funding this new initiative at 
$4.8 million to accelerate bycatch reduction efforts. Current funding 
for this initiative is $3.745 million.
    National Undersea Research Program--$12.5 million.--Oceana supports 
a slight increase above current enacted levels for NOAA's National 
Undersea Research Program. This program can help managers locate and 
map areas of ancient, deep sea corals and other vital undersea habitats 
that are important for healthy fish and marine mammal populations.
    Marine Mammal Protection--$82.0 million.--Oceana recommends 
sustaining the level of funding provided to support marine mammal 
research and management activities in the fiscal year 2005 budget 
($82.0 million). These funds will help the National Marine Fisheries 
Service more fully assess and adopt measures to recover depleted and 
strategic marine mammal species, such as bottlenose dolphins, pilot 
whales, and common dolphins. It will also help the agency improve the 
knowledge of marine mammal populations; currently, the status of more 
than 200 protected and at-risk marine species is unknown. Activities 
that will be supported by these funds include funding top priority 
studies identified by the take reduction teams; designing and 
implementing take reduction plans for certain depleted marine mammal 
populations; conducting research on population trends; working on 
recovery plans; and conducting critical research on health and respond 
to marine mammal die-offs.
    Sea Turtle Conservation--$15.0 million.--Oceana urges the 
subcommittee to sustain work currently underway on sea turtle research 
and conservation by providing $15.0 million to NMFS programs dedicated 
to protecting sea turtles. Current funding levels for sea turtle work 
are $14.943 million. All sea turtles found in U.S. waters are 
officially protected as endangered or threatened. Additional funding 
will enhance research, recovery, and protection activities for 
imperiled sea turtle species. We also encourage additional funding to 
support the agency's Atlantic sea turtle bycatch reduction strategy 
that will examine needed gear modifications for conservation.
    Expanding Stock Assessments of our Nation's Fisheries--$30.0 
million.--Due to a lack of funding for basic research, we do not have 
adequate information about the status of many commercial fish stocks. 
Almost two-thirds of the Nation's fish populations lack basic 
information to determine their status; there are 85 ``major'' stocks 
where the information about their status is classified as ``unknown.'' 
Oceana encourages the subcommittee to provide $30.0 million so that 
NMFS can hire additional biologists to produce annual stock 
assessments, fund necessary charter days at sea to collect data, and 
ultimately significantly reduce the number of fish stocks with unknown 
status. Accelerating this information gathering will help rebuild 
overfished stocks and improve fish management decisions. Current 
funding levels for fish stock assessment are $20.5 million.
    Fishery Cooperative Research--$20.0 million.--Oceana recommends the 
subcommittee provide $20.0 million to support research partnerships 
between NMFS, scientists, and individual fishermen. Current funding 
levels for this research are $19.173 million.
    Fishery Enforcement--$54.2 million.--Oceana strongly supports the 
administration's request of $54.2 million for fishery enforcement, 
which includes $9.3 million for the Vessel Monitoring System (VMS). 
This increase supports expansion of VMS, which helps to improve 
monitoring and enforcement of areas closed for protection of endangered 
species, critical habitat, and rebuilding sustainable fisheries.
    National Environmental Policy Act (NEPA) Implementation--$8.0 
million.--Oceana supports the administration's request of $8.0 million 
to enhance NMFS work in satisfying NEPA requirements. These funds will 
support NEPA specialists within the agency and in the eight regional 
fishery management councils and will help build the analytical 
capability needed to move toward ecosystem-based approaches to 
management.
    Thank you for your consideration of these recommendations.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to submit testimony for the record regarding the fiscal 
year 2006 funding request for the National Fish and Wildlife Foundation 
(Foundation). The Foundation respectfully requests that this 
subcommittee fund the Foundation at $4 million ($2 million from both 
National Ocean Services and National Marine Fisheries Services) through 
the National Oceanic and Atmospheric Administration (NOAA) 
appropriation. This request would allow the Foundation as the official 
Foundation to NOAA to continue to leverage scarce Federal dollars and 
expand its highly successful grant program to better assist NOAA in 
forwarding their mission for coastal and marine conservation, as well 
as species recovery. This request lies well within the authorized 
amount for the Foundation.
    Federal dollars appropriated by this subcommittee allow us to 
leverage State, local, and private dollars for on-the-ground 
conservation. Since our founding in 1984, the Foundation has supported 
over 7,273 conservation grants and leveraged over $305.1 million in 
Federal funds into more than $918.8 million for on the ground 
conservation. This has resulted in more than 17.4 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and, stronger 
conservation education programs in schools and local communities. We 
recognize that without the seed money this committee provides, many 
conservation benefits would not be realized. None of our federally 
appropriated funds are used for lobbying or litigation, or for the 
Foundation's administrative expenses. All of our federally appropriated 
funds go to on-the-ground projects. Furthermore, our general 
administrative expenses, including fundraising, public relations, and 
finance and administration is below 8 percent.
    In 1999, Congress expanded the Foundation's mandate to expressly 
include the National Oceanic and Atmospheric Administration (NOAA) and 
its mission. For nearly a decade, NOAA and the Foundation have jointly 
supported projects in marine conservation through public-private 
partnerships. By the end of fiscal year 2004, over $34 million in NOAA 
and Foundation funds had been leveraged to produce $94 million for on-
the-water conservation.
    In fiscal year 2004, we were appropriated $2.497 million in NOAA 
funds which we were able to leverage with over $6 million in additional 
Foundation and partner dollars for a total conservation of $8.8 
million. We achieved this leveraging of the Federal dollar by 
cultivating partnerships. In fiscal year 2004, the Foundation partnered 
these funds with seven other foundations and several private sector 
corporations like Shell Oil, Pacific Life Insurance, Bass Pro Co., and 
ConocoPhillips.
    In the fiscal year 2005 Omnibus Bill, we only received $1.7 million 
of our historical $2.5 million mark for our NOAA partnership. In 
addition to this lower allocation, 3 rescissions totaling 1.44 percent 
were also assigned by Congress which further impacts our level of 
funding. This brings the total for our NOAA program down to $1,675,600. 
This number could be further impacted by NOAA ``Administrative Fees'' 
before the money comes to the Foundation and can be up to 5 percent of 
the total.
    Although we have not received our fiscal year 2005 funds yet, we 
have already received over $5 million in good project proposals 
competing for these dollars and expect more good proposals than we are 
able to fund as the fiscal year progresses. A 30 percent decrease will 
greatly impact funding available for our NOAA program, one of NOAA's 
largest leveraging vehicles and broadest brush for general marine and 
coastal conservation projects. The fiscal year 2005 budget cuts will 
only compound this need and compromise NOAA's ability to support 
desired quality projects. Projects often directly assist NOAA in 
achieving under funded management objectives and come to the Foundation 
with strong support from regional and program offices. In addition to 
supplementing these NOAA priorities through our appropriation, the 
Foundation leverages NOAA's dollar for an even greater impact than what 
they could achieve on their own.
    Six special issue programs that we administer will also be impacted 
by the reduction in funds as they are also supported through the 
appropriation. Many of these programs were created at the request of 
NOAA to help focus more funds and attention to key priorities within 
the agency. The fiscal year 2005 cuts will obviously impact some or all 
of these programs in the number of projects they can support, and may 
have additional impacts if NOAA is the main or only partner. An even 
bigger concern may be in the need to have Federal monies to leverage 
the private funds that NOAA has asked us to raise to grow these special 
programs. Our fiscal year 2006 appropriations request will put us back 
on track to continue leveraging scarce Federal resources, and allow us 
to leverage even more and increase the resulting conservation benefits.
    Although NOAA and the Foundation have partnered together in the 
conservation of specific priorities from great whales to the Chesapeake 
Bay, the heart of the partnership is the general conservation grant 
program. This general challenge grant program has allowed the 
Foundation to be highly successful in assisting NOAA in accomplishing 
its mission to help people conserve, maintain and improve our natural 
resources and environment and provide flexible response to achieving 
short and long-term objectives. In fiscal year 2004 the general call 
program supported partnerships that restored 70 acres of coastal, 
estuarine and nearshore habitat and helped rivers and streams that 
support anadromous fish habitat across the nation to be restored or 
managed more effectively.
    Working Watersheds.--The Foundation awarded 7 projects to aid 
coastal and marine habitats in 2004 with $521,300 in NOAA dollars that 
was successfully leveraged with other Federal (this includes 
Environmental Protection Agency and U.S. Fish and Wildlife Service 
partnerships) and non-Federal dollars to apply more than $1.5 million 
to conservation. Our grant program was uniquely able to provide 
expertise by engaging local aquariums and community groups, fishermen, 
conservancies, universities, and local government to undertake on-the-
ground hands-on restoration and replanting activities to off-set the 
tide of habitat loss in many of our coastal and nearshore systems. 
Areas of focus include:
  --Restoring Estuarine and Coastal Habitats.--The steady rate of 
        coastal development and damaging up-stream activities are 
        causing our estuarine and coastal habitats to be lost at an 
        alarming rate. The Foundation has had tremendous success in 
        countering these problems by partnering NOAA funds with other 
        agencies like the Environmental Protection Agency to address 
        these issues from a whole watershed perspective as in the case 
        of our Chesapeake Bay Small Watershed Grants Program and 
        Delaware Estuary Grants Program. This model has proved so 
        successful that in fiscal year 2004, we expanded our coastal 
        habitat portfolio with a new program in Long Island Sound. The 
        Long Island Sound Futures Fund partners NOAA, FWS, NRCS, and 
        EPA and draws from State and Federal planning documents for 
        priorities. In its launch year, the new program will be 
        awarding 25-30 projects using approximately $1 million in 
        Federal and non-Federal funds, resulting in $2.7 million to the 
        region through leveraging. In addition to these monetary 
        partnerships, these Foundation programs are tapping into local 
        community resources. For example, one project allowed a 
        community to complete and expand a wetland restoration near a 
        former industrial area enhancing the biological value and 
        visual appeal of the site located near a shoreline nature 
        trail.
      In fiscal year 2006, we plan to build on this success by 
        launching a similar program in the Great Lakes region, as well 
        as investigate future programs in other priority areas in the 
        San Francisco Bay area and the Puget Sound region.
  --Protecting Coral Reefs.--In the marine environment, $1 million in 
        NOAA dollars were leveraged in fiscal year 2004 to apply more 
        than double that amount, $2.4 million, to 26 projects to 
        conserve coral reefs. Project examples include protecting coral 
        reefs and fish nurseries in Hawaii, quantifying the impact of 
        sport divers on the reefs in the Florida Keys, evaluating 
        management activities, implementing a volunteer fisheries data 
        collection program, and building stakeholder support for reef 
        management in Belize. Fiscal year 2005 priorities for the Fund 
        consist of reducing nutrient run-off and sedimentation to 
        coastal reefs, as well as supporting community leadership to 
        improve the management and effectiveness of existing marine 
        protected areas. This year will also build off of a new 
        partnership with the White Water to Blue Water Initiative--
        Anchors Away! Program to establish mooring buoys programs to 
        reduce the damage from anchoring on coral reefs.
    Conserving Fish, Wildlife, and Plants.--With our NOAA dollars, the 
Foundation funds projects that directly benefit diverse fish and 
wildlife species including albatross in the waters off the Pacific, 
manatees and sea turtles in the Gulf and Southern Atlantic and right 
whales in the Northern Atlantic.
  --Threatened and Endangered Species Solutions.--We measure our 
        success by preventing the listing of species under the 
        Endangered Species Act and by stabilizing and (hopefully) 
        moving others off the list. We invest in common sense and 
        innovative cooperative approaches to endangered species, 
        building bridges between the government and the private sector. 
        In fiscal year 2004, the Foundation used $584,460 in NOAA funds 
        to support marine species conservation and recovery from Maine 
        to Latin America. We leveraged this investment with an 
        additional $1.6 million in Federal and non-Federal match 
        funding, and expanded our coordination of this work with 
        Federal, State, and local entities.
    Expanding Conservation Education Opportunities.--The Foundation 
made great strides in diversifying our education and outreach 
activities with NOAA funds, in fiscal year 2004. All told, the 
Foundation awarded over $400,000 last year in NOAA funds for marine 
education--three times the support under this category than last year! 
This commitment was leveraged to more than $1.6 million in other 
Federal and non-Federal partnership dollars. Examples included a 
``Look, Don't Touch'' billboard campaign to protect coral reefs in the 
Pacific, support for marine education spots on national public radio, 
and sponsorship of over 10 student scholarships in marine sciences. 
Other grants awarded will enhance or expand conservation education and 
training for students, teachers, private landowners, community groups 
and others.
    Through these and other efforts, the Foundation remains committed 
to the conservation goals of our partners--Federal, State, local and 
private. In fiscal year 2006, we will continue to multiply our efforts 
to foster public-private partnerships. We also recognize that there are 
many unmet challenges, and we stand ready to help local communities and 
other conservation stakeholders to achieve success.
    Accountability and Grantsmanship.--All potential grants are subject 
to a peer review process involving State and Federal agency staff, 
academics, community and environmental interests, corporations, and 
others. The review process examines the project's conservation need, 
technical merit, the support of the local community, the variety of 
partners, and the amount of proposed non-Federal cost share. We also 
provide a 30-day notification to the member of Congress for the 
congressional district in which a grant will be funded, prior to making 
the grant. In addition, the Foundation requires strict financial 
reporting by grantees and is subject to an annual audit.
    Basic Facts About the Foundation.--The Foundation promotes 
conservation solutions by awarding matching grants using its federally 
appropriated funds to match private sector funds. We have a statutory 
requirement to match Federal funds with at least an equal amount of 
non-Federal funds, which we consistently exceed. No Federal 
appropriations are used to meet our administrative expenses.
    The Foundation is governed by a 25-member Board of Directors, 
appointed by the Secretary of the Interior and in consultation with the 
Secretary of Commerce, and operates on a nonpartisan basis. Directors 
do not receive any financial compensation for service on the Board; in 
fact, all of our directors make financial contributions to the 
Foundation. It is a diverse Board, representing the corporate, 
philanthropic, and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the, most cost-effective conservation program funded in part by 
the Federal Government. By implementing real-world solutions with the 
private sector while avoiding regulatory or advocacy activity, we serve 
as a model for bringing private sector leadership to Federal agencies 
and for developing cooperative solutions to environmental issues. We 
are confident that the money you appropriate to the Foundation is 
making a positive difference.
                                 ______
                                 
        Prepared Statement of the American Astronomical Society

    I submit this testimony on behalf of the American Astronomical 
Society and have attached a disclosure statement of the Society's 
various Federal grants by agency and program received during the 
previous 2 fiscal years.

                              INTRODUCTION

    The American Astronomical Society (AAS) is the largest professional 
organization for research astronomers in the United States. With 
approximately 6,500 members, the AAS publishes the major astronomical 
research journals and also organizes meetings to highlight recent 
results and discoveries. The organization was founded in 1899 and has 
helped the profession grow to its present robust state.
    Government support has been essential to the stunning achievements 
of astronomy research in the United States. Within just the past 15 
years, U.S. astronomers supported by NASA, the NSF and the DOE have led 
the way in discovering the first planets around other stars and in 
determining that we live in a Universe whose expansion is speeding up, 
driven by a previously undetected component of the Universe, the dark 
energy. These discoveries appeal to the imagination of a wide segment 
of the public and confront our most basic understanding of the physical 
world. Discoveries made with government-funded telescopes, both on the 
ground and in space, appear daily on the front pages of the Nation's 
newspapers. The American public values astronomy and endorses 
government support for astronomy research. Although only a small 
portion of the Federal investment in basic research goes to astronomy, 
astronomy plays a vital role for all of physical science by drawing 
interested students into careers in physical science, engineering, and 
mathematics. Statistics show that fewer than 20 percent of 
undergraduate astronomy students ultimately work in basic astronomy 
research, but nearly all of them find work in technical fields, 
bolstering our Nation's economy, and improving our quality of life.

            THE DECADAL SURVEY OF ASTRONOMY AND ASTROPHYSICS

    The Astronomy community has a long history of setting priorities 
within the field. Each decade, supported by NASA and NSF as well as the 
AAS, astronomers meet over a 2-year period to decide what physical 
resources are needed for the coming decade. Through a National Research 
Council committee, the state of the science is reviewed, the areas of 
research most likely to produce significant results are ranked, and the 
facilities needed to carry out this path breaking work are assessed. 
The result is a prioritized, consensus list with realistic costs for 
astronomical facilities on the ground and in space to be built in the 
coming decade. Dubbed the Decadal Survey, the reports are available 
from the National Research Council's Space Studies Board and Committee 
on Physics and Astronomy. By reaching consensus on the telescopes, 
space missions and other needs necessary for the coming decade, 
astronomers aim to help policy makers as they decide what projects to 
fund. Because the Decadal Survey represents a carefully constructed 
consensus among the astronomy research community, legislators can be 
sure that the community will endorse funding projects that are on this 
list. Missions or projects not on the list may still be of great 
importance, but unless they are included in the survey or the mid-
course review of the survey (also prepared by the NRC and representing 
community consensus as each decade progresses), additional projects 
deserve careful scrutiny prior to being funded.
    Astronomers are proud of this process and we are happy to see that 
our close colleagues, the planetary science community and the solar and 
space physics community have initiated similar efforts, publishing 
their first decadal survey reports in just the past 4 years. The AAS 
has formally endorsed all three reports and actively works to educate 
policy makers about their importance for our discipline. Because we 
have seen how effective a well-ordered list of priorities can be in 
helping with the policy making process, we hope that other fields will 
attempt to undertake their own priority-setting efforts.
    Another recent report, Quarks to the Cosmos, has been published by 
the National Research Council to highlight the growing synergy between 
basic physics and astronomy. This report provides 11 basic questions 
and outlines a way toward answering them through partnerships among the 
three basic funding agencies that support astronomy, NASA, NSF and the 
DOE. The AAS has endorsed this report and supports its recommendations. 
One recent development is the establishment by Congress of a FACA 
committee: the Astronomy and Astrophysics Advisory Committee (AAAC). 
This committee is charged with assessing and making recommendations 
concerning the astronomy and astrophysics activities of NASA, NSF, and 
DOE and in monitoring their progress in fulfilling the outlines of the 
Decadal report and its sequels. Their report is sent each March 15 to 
the appropriate Congressional committees, the NASA Administrator, the 
NSF Director, and widely distributed within OMB, OSTP, and to agency 
personnel.

                       THE HUBBLE SPACE TELESCOPE

    As all U.S. citizens are aware, the Hubble Space Telescope (HST) is 
in danger of failing on orbit due to declining battery performance and 
fine guidance gyroscope failure. The former administrator of NASA, Sean 
O'Keefe, decided to cancel long-planned astronaut servicing of the 
telescope. A National Research Council committee was ultimately formed 
to investigate alternatives for the future of the HST. Chaired by Lou 
Lanzerotti and composed of experts from a variety of backgrounds 
including engineering, aerospace and safety, the committee recommended 
that NASA service the telescope using astronauts on the Shuttle. The 
AAS has formally endorsed this report and its recommendations. We are 
delighted to see that the new NASA Administrator, Mike Griffin, 
promises to undertake an internal review of a possible Shuttle 
servicing mission immediately after the first flight of the Shuttle. 
Further, the AAS endorsement points out that a serviced HST will 
continue to produce excellent science results. If, in a departure from 
past practice and understandings, the cost of servicing the telescope 
were funded completely from NASA's science budget, this would have a 
serious impact on the entire range of science that NASA supports. A 
creative funding solution is necessary to both service HST and retain 
the vitality of NASA's existing science programs. The present budget, 
even without costs attributed to Hubble servicing, has caused many 
useful science programs to be curtailed at NASA, disrupting productive 
research by AAS members. We recommend that Congress find a way to meet 
both of these important needs.

                     LARGE FACILITIES FUNDED BY NSF

    Astronomers require large telescopes to collect faint light from 
the furthest reaches of the Universe. The National Science Foundation 
plays a critical role in astronomy research through its construction, 
operation and enhancement of ground-based telescopes that are available 
to all U.S. astronomers and through support of instrumentation at 
telescopes run by universities or by private organizations. The 
National Optical Astronomy Observatories, National Radio Astronomy 
Observatory, National Astronomy and Ionospheric Center, and the 
National Solar Observatory all provide access to large telescopes with 
cutting-edge technology to astronomers from both large and small 
colleges and universities. The Gemini Observatories: two 8-meter 
telescopes, one located in the Northern hemisphere and one in the 
Southern, have recently been completed. The Atacama Large Millimeter 
Array: a radio wavelength interferometer that will allow a wide range 
of studies ranging from the furthest reaches of the Universe to the 
formation of nearby stars and planets is now under construction. The 
Advanced Technology Solar Telescope: a telescope that will provide the 
best images of the nearest star's surface and allow new insight into 
the complex role of magnetic fields and the impact of solar variability 
on our Earth.
    These large facilities are expensive to build and expensive to 
operate, but they are of fundamental importance. A new generation of 
telescopes seems within out technical reach, much larger and more 
powerful than any that have gone before. The Giant Segmented Mirror 
Telescope is a top priority in the Decadal Report, and it seems likely 
to come to fruition as a public-private partnership. A forward-looking 
approach to developing the technologies for the giant telescopes of the 
not-too-distant future will require creative thinking at the NSF to 
plan ahead for these large facilities. Similarly, the potential for 
developing a new kind of astronomy based on frequent surveys of the sky 
will harness the revolution in electronic detectors and in data 
processing to astronomical ends. These synoptic surveys promise to find 
everything from rogue objects in the solar system to exploding stars at 
the edge of the Universe.
    The AAS strongly supports the construction and operation of the 
Nation's large research facilities, especially the telescopes supported 
by the NSF. We recommend that Congress continue to support these 
facilities adequately. One important part of any effective plan is 
provision of adequate operations support for the lifetime of any new 
facility. This needs to include funds for upgrading the instrumentation 
as new technology becomes available. Old telescopes can provide new 
insight when adequate development support is provided to the engineers 
and scientists who build new instruments for these large telescopes. 
This recommendation is also one of the high priority items in the most 
recent Decadal Survey and is strongly supported by the astronomy 
community.

                   THE VISION FOR EXPLORATION AT NASA

    NASA's space science program is returning excellent results on a 
very broad range of topics. Their work is visible to the public 
worldwide. There are excellent programs in progress, following the 
precepts of the Decadal Survey, including the highest ranked large 
project in space: the James Webb Space Telescope. However, the 
challenges for NASA are very substantial. Within the current budget 
constraints, NASA is being asked to complete the International Space 
Station and ramp down the Space Shuttle while initiating the 
Exploration Vision. We expect that NASA will find a way to integrate 
its broad and vigorous space science program into the stated strategic 
goals of the agency in a way that strengthens the Exploration Vision. 
NASA should do this for the scientific returns, the inspirational value 
to the Nation, and as a continuing demonstration of NASA's value to the 
Nation and to the world. Exploration without science is tourism.

                               CONCLUSION

    The Congress continues to support a vital and energetic research 
program in the astronomical sciences. The AAS thanks Congress for this 
support on behalf of the U.S. astronomy community. The budgets of NASA, 
NSF and the DOE are all important for astronomy research. Astronomy 
makes a direct connection to the U.S. public: we know they support the 
use of public funds to support astronomy research. The AAS understands 
that there are many pressures on the Federal budget, but we know that 
investment in astronomy is important and wise use of public funds. 
People want to know what the Universe is and how it works. Many 
students are drawn to science through astronomy. They very often end up 
helping our economy in other areas, especially in technology 
development, the physical sciences, or engineering. Astronomy is good 
for the United States and a valuable investment for the Congress.

                          STATEMENT ON GRANTS

    The American Astronomical Society has held in the past 2 fiscal 
years the following grants.
NASA
    NAG5-4537 Astronomical Research Projects.--$341,000 (fiscal year 
2005-fiscal year 2008).
    NAG5-12126 Astronomical Research Projects.--$294,737 (fiscal year 
2002-fiscal year 2004).
NSF
    AST002-28004 International Travel Grant Program.--$325,500 (fiscal 
year 2002-fiscal year 2005).
    AST004-31452 Request for the Annual ISEF Bok and Lines Awards.--
$77,880 (fiscal year 2004-fiscal year 2007).
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency Involved.--Department of Justice.
    Program Involved.--COPS Tribal Resources Grant Program.
    Summary of GLIFWC's Fiscal Year 2006 Testimony.--The Commission 
requests that Congress support the administration's proposal to fund 
this program at $51,600,000 in fiscal year 2006, an increase of 
$31,867,000 above last year's Congressional appropriation.
    Disclosure of DOJ Grants Contracted.--The Commission is an 
intertribal organization which, under the direction of its member 
tribes, implements Federal court orders governing tribal harvests of 
off-reservation natural resources and the formation of conservation 
partnerships to protect and enhance natural resources within the 1836, 
1837, and 1842 ceded territories (See map). Under COPS Tribal Resources 
Grant Program, the Commission contracted:
  --$172,924 in fiscal year 2000 for the purposes of replacing obsolete 
        radio equipment and to improve the capacity of GLIFWC's 
        officers to provide emergency services throughout the Chippewa 
        ceded territories;
  --$292,190 in fiscal year 2001 for the purposes of replacing obsolete 
        patrol vehicles (boats, ATVs, and snowmobiles), purchasing 
        portable defibrillators, and training GLIFWC officers;
  --$302,488 in fiscal year 2002 for the purposes of replacing obsolete 
        patrol vehicles (ATVs and snowmobiles), improving officer 
        safety (in-car video cameras), increasing computer 
        capabilities, and expanding training of GLIFWC officers in 
        interagency emergency response;
  --$280,164 in fiscal year 2003 for the purposes of hiring three 
        additional officers, providing basic recruit training, and 
        supplying standard issue items; and
  --$108,034 in fiscal year 2004 for the purposes of purchasing patrol 
        vehicles (three patrol trucks, an ATV and snowmobile), digital 
        cameras, and providing instructor development and basic recruit 
        training.
    Ceded Territory Treaty Rights and GLIFWC's Role.--GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Public Law 93-638). It exercises 
authority delegated by its member tribes to implement Federal court 
orders and various interjurisdictional agreements related to their 
treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    For the past 20 years, Congress and administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member Tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
    Community Based Policing.--GLIFWC's officers carry out their duties 
through a community-based policing program. The underlying premise is 
that effective detection and deterrence of illegal activities, as well 
as education of the regulated constituents, are best accomplished if 
the officers live and work within tribal communities that they 
primarily serve. The officers are based in 10 satellite offices located 
on the reservations of the following member tribes: In Wisconsin--Bad 
River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, Sokaogon 
Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; and in 
Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.
    Interaction with Law Enforcement Agencies.--GLIFWC's officers are 
integral members of regional emergency services networks in Minnesota, 
Michigan and Wisconsin. They not only enforce the tribes' conservation 
codes, but are fully certified officers who work cooperatively with 
surrounding authorities when they detect violations of State or Federal 
criminal and conservation laws. These partnerships evolved from the 
inter-governmental cooperation required to combat the violence 
experienced during the early implementation of treaty rights in 
Wisconsin. As time passed, GLIFWC's professional officers continued to 
provide a bridge between local law enforcement and many rural Indian 
communities. GLIFWC remains at this forefront, using DOJ funding, to 
develop inter-jurisdictional legal training attended by GLIFWC 
officers, tribal police and conservation officers, tribal judges, 
tribal and county prosecutors, and State and Federal agency law 
enforcement staff. DOJ funding has also enabled GLIFWC to certify its 
officers as medical emergency first responders, including CPR, and in 
the use of defibrillators, and train them in search and rescue, 
particularly in cold water rescue techniques. When a crime is in 
progress or emergencies occur, local, State, and Federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks of the ceded territories. This network includes the 
Wisconsin Department of Natural Resources, Minnesota Department of 
Natural Resources, Michigan Department of Natural Resources, U.S. Coast 
Guard, USDA-Forest Service, State Patrol and Police, county sheriffs 
departments, municipal police forces, fire departments and emergency 
medical services.
    GLIFWC Programs Currently Funded by DOJ.--GLIFWC recognizes that 
adequate communications, training, and equipment are essential both for 
the safety of its officers and for the role that GLIFWC's officers play 
in the proper functioning of interjurisdictional emergency mutual 
assistance networks in the ceded territories. GLIFWC's COPS grants for 
the past 4 years have provided a critical foundation for achieving 
these goals. Significant accomplishments with Tribal Resources Grant 
Program funds include:
  --Improved Radio Communications and Increased Officer Safety.--GLIFWC 
        replaced obsolete radio equipment to improve the capacity of 
        officers to provide emergency services throughout the Chippewa 
        ceded territories. GLIFWC also used COPS funding to provide 
        each officer a bullet-proof vest, night vision equipment, and 
        in-car videos to increase officer safety.
  --Emergency Response Equipment and Training.--Each GLIFWC officer has 
        completed certification as a First Responder and in the use of 
        life saving portable defibrillators. In 2003, GLIFWC officers 
        carried First Responder kits and portable defibrillators during 
        their patrol of 275,257 miles throughout the ceded territories. 
        In remote, rural areas the ability of GLIFWC officers to 
        respond to emergencies provides critical support of mutual aid 
        agreements with Federal, State, and local law enforcement 
        agencies.
  --Ice Rescue Capabilities.--Each GLIFWC officer was certified in ice 
        rescue techniques and provided a Coast Guard approved ice 
        rescue suit. In addition, each of GLIFWC's 10 reservation 
        satellite offices was provided a snowmobile and an ice rescue 
        sled to participate in interagency ice rescue operations with 
        county sheriffs departments and local fire departments.
  --Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
        completed Wilderness Search and Rescue training. The COPS 
        Tribal Resources Grant Program also enabled GLIFWC to replace 
        many vehicles that were purchased over a decade ago including 
        10 ATV's and 16 patrol boats and the GPS navigation system on 
        its 31 foot Lake Superior Patrol Boat. These vehicles are used 
        for field patrol, cooperative law enforcement activities, and 
        emergency response in the 1837 and 1842 Chippewa Ceded 
        Territories. GLIFWC officers also utilize these vehicles for 
        boater, ATV, and snowmobile safety classes taught on 
        Reservations as part of the Commission's Community Policing 
        Strategy.
  --Hire, Train, Supply, and Equip Three Additional Officers.--Funding 
        has been contracted to provide three additional officers to 
        ensure tribes are able to meet obligations to both enforce off-
        reservation conservation codes and effectively participate in 
        the myriad of mutual assistance networks located throughout a 
        vast region covering 60,000 square miles.
    Consistent with numerous other Federal court rulings on the 
Chippewa treaties, the United States Supreme Court recently affirmed 
the existence of the Chippewa's treaty-guaranteed usufructuary rights 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. This expanded workload, combined 
with staff shortages would have limited GLIFWC's effective 
participation in regional emergency services networks in Minnesota, 
Michigan and Wisconsin. The effectiveness of these mutual assistance 
networks is more critical than ever given: (1) National homeland 
security concerns, (2) State and local governmental fiscal shortfalls, 
and (3) staffing shortages experienced by local police, fire, and 
ambulance departments due to the call up of National Guard and military 
reserve units.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below:
  --as trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs' 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --search and rescue for lost hunters, fishermen, hikers, children, 
        and elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        counties in Michigan).
  --being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Burnett, Sawyer, and Vilas counties in Wisconsin).
  --organize and participate in search and rescues of: (1) ice 
        fishermen on Lake Superior (Ashland and Bayfield counties in 
        Wisconsin), (2) Lake Superior boats (Baraga county in Michigan 
        and with the U.S. Coast Guard in other parts of western Lake 
        Superior), (3) lost airplanes (Ashland, Forest and Washburn 
        counties in Wisconsin), and (4) drowning incidents (St. Croix 
        River on the Minnesota/Wisconsin border, Sawyer county in 
        Wisconsin, Gogebic county in Michigan).
    Simply put, supporting GLIFWC's officers will not only assist 
GLIFWC in meeting its obligations to enforce tribal off-reservation 
codes, but it will enhance intergovernmental efforts to protect public 
safety and welfare throughout the region by the states of Wisconsin, 
Minnesota, and Michigan. The COPS Tribal Resources Grant Program 
provides essential funding for equipment and training to support 
GLIFWC's cooperative conservation, law enforcement, and emergency 
response activities. We ask Congress to support increased funding for 
this program.
                                 ______
                                 
        Prepared Statement of the American Psychological Society

                       SUMMARY OF RECOMMENDATIONS

    APS supports the Coalition for National Science Funding 
recommendation of $6 billion for the National Science Foundation in 
fiscal year 2006.
    We ask that the Social, Behavioral and Economic Sciences (SBE) 
Directorate be funded at the 10.3 percent increase the President 
proposed in last year's NSF budget request.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to present the views of the American Psychological Society 
(APS) on the fiscal year 2006 appropriations of the National Science 
Foundation (NSF). APS is a nonprofit organization dedicated to the 
promotion, protection, and advancement of the interests of 
scientifically oriented psychology in research, application, teaching, 
and the improvement of human welfare. Our 16,000 members are scientists 
and academics at the Nation's universities and colleges. The NSF 
supports many members of APS, and a great deal of basic research in our 
field simply could not exist without NSF funding.

            THE NATION'S PREMIERE BASIC RESEARCH ENTERPRISE

    When the administration requested a mere 2.47 percent ($132 
million) increase for the National Science Foundation in fiscal year 
2006, it placed the progress of scientific research on hold. We are 
extremely disappointed as the request will barely maintain the costs of 
inflation, and will not sustain and advance the Nation's investment in 
scientific research.
    In the spirit of the NSF Authorization Act of 2002 (H.R. 4664) 
passed by the 107th Congress and signed by the President (Public Law 
107-368), we join with the Coalition for National Science Funding 
(CNSF) in recommending $6 billion for the National Science Foundation. 
Matching the reauthorization would lead us toward a much-needed 
doubling of the Nation's premiere basic research enterprise--bringing 
NSF from $4.8 billion to $9.8 billion over 5 years. The basic science 
community asks the committee to make the underlying intent of this 
authorization a reality. The increases Congress has provided for NSF in 
the past, and the increase we are recommending today, are important 
steps in offsetting the under-funding that is a chronic condition for 
NSF. We hope you will continue to expand NSF's budget.

     THE SOCIAL, BEHAVIORAL AND ECONOMIC SCIENCES (SBE) DIRECTORATE

    On June 1, David W. Lightfoot, Ph.D. will become NSF Assistant 
Director for Social, Behavioral and Economic Sciences. We ask the 
committee to join us in welcoming Dr. Lightfoot.
    The Directorate for the Social, Behavioral and Economic Sciences 
(SBE) supports funding for basic behavioral research. Under the 
administration's budget plan, SBE would receive $198.8 million, 1 
percent over fiscal year 2005. This comes on the heels of a series of 
below-average increases in previous years.
    Over the years, many initiatives of the SBE Directorate have been 
encouraged. But this is not what has occurred recently. Although the 
President proposed a 10.3 percent increase for SBE in fiscal year 2005, 
SBE received an increase of only 6.8 percent over fiscal year 2004. A 
similar process occurred the previous fiscal year. We are concerned 
about this shortfall, given the enormous potential of behavioral 
science to address many critical issues facing the Nation. To offset 
previous years' under-funding, we ask the committee to fund SBE at the 
10.3 percent increase the President proposed in last year's NSF budget 
request. At the very least, we ask that the SBE Directorate share 
proportionately in any such increases ultimately received by NSF.
    An Overview of Basic Psychological Research.--NSF programs and 
initiatives that involve psychological science are our best chance to 
solve the enigma that has perplexed us for so long: How does the human 
mind work and develop? APS members include many scientists who conduct 
basic research in areas such as learning, cognition, and memory, and 
the linked mechanisms of how we process information through visual and 
auditory perception. Others study judgment and decision-making (the 
focus of a Nobel prize recently awarded to APS Fellow and NSF grantee 
Daniel Kahneman); mathematical reasoning (the focus of the most recent 
President's Medal of Science awarded to APS Fellow and NSF Grantee R. 
Duncan Luce); language development; the developmental origins of 
behavior; and the impact of individual, environmental and social 
factors in behavior.
    What's more, basic psychological research supported by NSF and 
conducted by APS members ultimately has had a wide range of 
applications, including designing technology that incorporates the 
perceptual and cognitive functioning of humans; teaching math to 
children; improving learning through the use of technology; developing 
more effective hearing aids and speech recognition machines; increasing 
workforce productivity; and ameliorating social problems such as 
prejudice or violence. While this is a diverse range of topics, all 
these areas of research are bound together by a simple notion: that 
understanding the human mind, brain, and behavior is crucial to 
maximizing human potential. That places these pursuits squarely at the 
forefront of several of the most pressing issues facing the Nation, 
this Congress, and the administration.
    We also believe that progress in psychological science will lead to 
advances in our powers to predict, detect, and prevent terrorism, in 
support of the basic science related to Homeland Security. In this time 
of uncertainty, where we can come to rely so heavily on technology to 
keep us safe and confident, we must turn to social behavior and 
cognition in order to maximize this technology. An understanding of how 
people process information will enable us to design technology that 
fits our needs and make us comfortable when using them. The potential 
for advances are limitless.

                             SBE HIGHLIGHTS

    Research supported by the SBE Directorate has the potential to 
increase employee productivity, improve decision making in critical 
military or civilian emergency situations, and inform the public 
policymaking processes across a range of areas. To give just a few 
examples:
    Perception, Action, and Cognition.--The perception, action, and 
cognition program at NSF supports research on these three functions, 
and the development of these capacities. Topics include vision, 
audition, attention, memory, reasoning, written and spoken discourse, 
motor control, and developmental issues in all topic areas. The program 
encompasses a range of theoretical perspectives such as symbolic 
computation, complex systems, and a variety of methodologies including 
experimental studies and modeling. By studying high-level cognitive 
activities, we can discover the core of cognition and what cognition 
qualities are universal.
    Cognitive Neuroscience Initiative.--Cognitive neuroscience, within 
the last decade, has become an active and influential discipline, 
relying on the interaction of a number of sciences, including 
psychology, cognitive science, neurology, neuroimaging, physiology and 
others. The cross-disciplinary aspects of this field have spurred a 
rapid growth in significant scientific advances. Cognitive 
neuroscientists are able to clarify their findings by examining 
developmental and transformational aspects of these phenomena across 
the lifespan. With brain imaging and other non-invasive techniques, we 
are poised to confirm and extend these theories through studies of the 
living brain. The Cognitive Neuroscience program solicits innovative 
proposals aimed at advancing an understanding of how the human brain 
supports thought, perception, emotion, action, social processes, and 
other aspects of cognition and behavior. Scientists from a range of 
areas test theories about normal brain functioning; assess the 
behavioral consequences of brain damage; and reach new levels of 
understanding of how the brain develops and matures.
    NSF's Children's Research Initiative.--Recognizing that a 
combination of perspectives--cognitive, psychological, social, and 
neural--is needed to fully understand how children develop and how they 
acquire and use knowledge and skills, the SBE Directorate supports 
interdisciplinary research centers that focus primarily on integrating 
traditionally disparate research disciplines concerned with child 
development. Known as the Children's Research Initiative (CRI), this 
program brings together such areas as cognitive development, broader 
cognitive science and broader developmental psychology, linguistics, 
neuroscience, anthropology, social psychology, sociology, family 
studies, cross-cultural research, and environmental psychology to name 
a few disciplines.
    And at a broader level, SBE's Social and Economic Sciences (SES) 
Division supports research and related activities aimed at better 
understanding, both nationally and internationally, political, economic 
and social systems and how individuals and organizations function 
within them. Further, it supports research activities related to risk 
assessment and decision making by individuals and groups, methods and 
statistics applicable across the behavioral sciences and broadening 
participation in the social, behavioral and economic sciences.
    Finally, NSF's ever-important Behavioral and Cognitive Sciences 
(BCS) Division supports research activities to advance the fundamental 
understanding of behavioral and cognitive sciences by developing and 
advancing scientific knowledge and methods focused on human cognition 
and behavior, including perception, social behavior and learning.
    In fiscal year 2006, for example, $1.27 million will support core 
research in behavioral and cognitive sciences to enable additional 
research on human origins, documenting endangered languages, the neural 
substrates of cognition, children's development and fundamental human 
social processes. Additional dollars will also support important 
research-related activities focusing on human diversity, including 
those designed to more effectively broaden participation of 
underrepresented groups in behavioral and cognitive science activities.

              CROSS-CUTTING BEHAVIORAL INITIATIVES AT NSF

    Human and Social Dynamics.--Human and Social Dynamics (HSD) fosters 
breakthroughs in understanding human action and development by multi-
disciplinary approaches to the causes and impact of social change. As 
it seeks to explore the convergence of biology, engineering, 
technology, and cognition, we will continue to learn more about 
decision-making and risk taking. For example, in fiscal year 2006 NSF 
is looking to advance understanding by exploring the interplay of 
neurological, sensory-motor, psychological, informational and social 
and organizational systems that produce coordinated efforts between 
individuals.
    As technology and engineering continue to develop at breakneck 
speed, it is essential that we study the human dynamics of such 
advances. One of the biggest challenges facing behavioral scientists is 
the understanding of everyday human performance and action, and how 
that is influenced by rapid change. HSD will support research that 
examines this challenge. The initiative seeks to refine our knowledge 
about decision-making, risk, and uncertainty, and then take this new 
knowledge and translate it into improved decision-making techniques. We 
live in a world where science such as this cannot be allowed to lag 
behind.
    An overlapping area is decision-making under uncertainty. Decision-
making under normal circumstances is complex enough; that complexity is 
compounded in a crisis. It is necessary to study such factors as 
distributed versus centralized decision making systems, new approaches 
to risk analyses, and the development of new tools and approaches to 
facilitate effective decision making and risk analysis under difficult 
or unique circumstances, including behavioral research in response to 
extreme events, such as terrorist attacks or natural disasters.
    The Science of Learning.--How people think, learn and remember are 
core NSF areas, drawing from topics across psychology: brain and 
behavior, learning, memory, perception, social psychology, and 
development. The challenge is: how can we apply and extend our 
knowledge of how people think, learn and remember to improve education?
    The Science of Learning Centers, launched in fiscal year 2003, will 
advance our understanding of the learning process and learning 
technologies. The Centers will strengthen the ties between education 
research and the education workforce. They will build collaborative 
research communities to respond to new challenges as they arise.
    In the administration's request, the Science of Learning Centers 
program is slated for $23 million, a welcome 15.9 percent increase over 
fiscal year 2005. The Centers will extend the frontiers of learning 
knowledge through investigations in human-computer interactions, 
cognitive psychology, cognitive neuroscience, and child learning and 
cognitive development.
    In closing, I want to note that building and sustaining the 
capacity for innovation and discovery in the behavioral sciences is a 
goal of the National Science Foundation. We ask that you encourage 
NSF's efforts in these areas, not just those activities described here, 
but the full range of activities supported by the SBE directorate and 
by NSF at large. Your support will help NSF lay the groundwork for this 
long-overdue emphasis on these sciences. Thank you.
                                 ______
                                 
        Prepared Statement of the Ecological Society of America

    As President of the Ecological Society of America, I am pleased to 
provide written testimony for the National Oceanic & Atmospheric 
Administration, National Aeronautics and Space Administration, and the 
National Science Foundation. The Ecological Society of America has been 
the Nation's premier professional society of ecological scientists for 
90 years, with a current membership of 9,000 researchers, educators, 
and managers.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Of particular interest to our community are NOAA's offices of the 
National Ocean Service (budget request is $414.7 million), the National 
Marine Fisheries Service (proposed budget is $727.9 million), and the 
Oceans and Atmospheric Research (budget request is $372.2 million). 
These offices support intramural and extramural research critical to 
NOAA's mission of managing marine and coastal resources to meet the 
Nation's environmental, economic, and social needs.
    NOAA is the only institution that collects and utilizes nationwide 
atmospheric and oceanic data. Its research on fisheries and coastal 
processes has become increasingly important as pressures on coastal 
areas and on fish populations grow. In-house NOAA research is an 
essential element of ecological research and provides stock 
assessments, basic research on fish species and marine mammals, as well 
as marine habitats. Without this research, NOAA could not meet its 
obligations under the Marine Mammal Protection Act, the Endangered 
Species Act or the Magnuson-Stevens Fisheries Conservation and 
Management Act and our scientific understanding of these topics would 
be greatly diminished. In addition to its intramural research programs, 
NOAA is a major funder of many important external research endeavors 
including research focused on harmful algal blooms, toxic contamination 
of estuaries, coastal habitat loss, non-point source pollution, and 
fishing gear impacts.
    The National Marine Fisheries Service (NMFS) provides the science 
necessary for revitalization of the Nation's fisheries resources and 
for the sustainability of the Nation's marine resources. The 
administration is proposing cutting NMFS by $95.8 million, although 
funding for stock assessments and protected species research and 
management would increase. While these are worthy areas of research, 
they should not come at the expense of other important programs such as 
habitat conservation and restoration.
    Within the National Ocean Service, two programs fund coastal 
ecological assessment or research. The Ocean Assessment Program, which 
funds critical monitoring projects such as coastal observing systems, 
would receive $55.2 million for fiscal year 2006. This represents a 
dramatic drop from the $146.9 million approved by Congress in fiscal 
year 2005. ESA appreciates past congressional support of this 
monitoring program and encourages support beyond the administration's 
request.
    The National Ocean Service also requests $48 million for the 
National Centers for Coastal Ocean Science (NCCOS), which joins NOAA's 
five coastal research centers. This request is $11.6 million below the 
amount appropriated for fiscal year 2005. ESA urges that funding for 
this program be restored to fiscal year 2005 levels, as NCCOS 
activities focus on five areas of ecosystem research that are national 
in scope and crucial to the Nation's research needs: climate change, 
extreme natural events, pollution, invasive species and land and 
resource use.
    The administration's fiscal year 2006 budget request for ocean, 
coastal, and Great Lakes research through the Oceans and Atmospheric 
Research (OAR) office is $118.6 million, a 19.2 percent decrease from 
fiscal year 2005 enacted levels. ESA appreciates past congressional 
support of this monitoring program and encourages support beyond the 
administration's request. Of particular importance to ESA is the 
National Sea Grant Program, administered by OAR, which supports 
research, education, and extension projects to help the United States 
better manage its coastal resources. The administration requests stable 
funding ($61.2 million) for the National Sea Grant Program for fiscal 
year 2006. The Ecological Society of America appreciates the 
recognition by Congress and the administration that this highly 
successful program is an important component of our coastal policy. We 
acknowledge the current budget constraints but would like to see this 
program's funding grow in the future.
    In addition, the National Undersea Research Program, which places 
scientists under the sea to conduct research, would fall by $1 million 
under the President's proposal. If this decrease were to go into 
effect, it would cut underwater ecosystem science projects--which 
support coastal and ocean resource management--by 20 percent. ESA urges 
that funding for this program be restored to the fiscal year 2005 
level.
    NOAA's research programs provide the Nation with valuable 
understanding of the workings of the oceans and atmosphere. NOAA has 
greatly advanced the field of ecological science through both its in-
house science programs and its commitment to funding external research. 
The Ecological Society of America thanks Congress for its past strong 
support of these programs and asks for its support in ensuring that 
NOAA retains its ability to wisely manage the Nation's coastal and 
marine resources using the best scientific information.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    The Ecological Society of America is disappointed that earth 
science research is not a priority in the President's budget request 
for NASA in fiscal year 2006. Although NASA's total Research and 
Development would grow to $11.5 billion, research in the earth sciences 
(down 4 percent to $2.1 billion), and biological and physical research 
(down 22 percent to $807 million), would face steep cuts in research on 
our home planet in order to fund space exploration.
    ESA urges that funding for this program be restored to the fiscal 
year 2005 level and that NASA increase its in-house research on 
environmental science. Currently, NASA is the leading Federal sponsor 
of the environmental sciences (oceanography, atmospheric sciences, 
geological sciences). The environmental sciences are a quarter of 
NASA's portfolio, but NASA accounts for a third of total Federal 
support for environmental sciences research. NASA has played a vital 
role in developing the Nation's capability to observe and understand 
earth systems, including research on climate change, remote sensing 
technology, ecosystem monitoring, and energy cycling. At a time when 
the Nation and the globe face increasing environmental and natural 
resource challenges, we believe it is critical to continue to support 
NASA's earth systems research.

                      NATIONAL SCIENCE FOUNDATION

    In order to ensure the Nation's future prosperity and security, the 
Ecological Society of America requests that the committee fund the 
National Science Foundation (NSF) at $6 billion. We recognize the 
current fiscal climate, but Federal investment in this agency--the only 
one to fund science and education across all disciplines--has yielded 
tremendous national benefits.
    One indicator of the need to support NSF is the agency's low grant 
proposal success rate--in 2004, 5,400 proposals rated ``very good'' or 
``excellent'' by NSF's peer review process were passed over due to lack 
of funds. The grant proposal success rate for the Biology Directorate 
is among the lowest of all the NSF directorates. We are concerned that 
the low grant success rate will eventually affect the choices of U.S. 
students as to whether or not they will choose to enter the field of 
ecology, a science that is crucial to meeting emerging environmental 
challenges.
    We ask for Congress's support in recognizing the unique role NSF 
plays in supporting non-medical biology. NSF is the principal Federal 
supporter of academic, non-medical research in biology and ecology; 
over 60 percent of the extramural funding for this type of research 
comes from the NSF. Research made possible by funding from NSF has shed 
much light on key environmental processes, the interactions among 
organisms, and the complex responses of ecosystems to stresses such as 
air and water pollutants. The knowledge gained from this research is 
critical input to the wise management of the environment for the 
benefit of humankind.
    Within the Biology Directorate, the Division of Environmental 
Biology (DEB) supports fundamental research on the evolutionary history 
of species and on the interactions of biological communities and 
ecosystems, ranging from the relatively undisturbed to heavily human-
impacted systems. DEB-supported researchers address a range of issues 
important to all of us-the consequences of excess nitrogen in the 
environment; the costly effects of invasive plants and animals; and the 
potential impacts of climate change on the Nation's ecosystems and 
biodiversity.
    In addition to supporting core biology funding, the Biology 
Directorate includes other programs important to the ecological 
community, such as the Long Term Ecological Research (LTER) Program and 
the agency's National Center for Ecological Analysis and Synthesis 
(NCEAS). We ask that the subcommittee support the budget request of 
$17.5 million (no change from last year's enacted amount) for LTER and 
$3.8 million (a 10 percent increase) for NCEAS.
    Finally, we encourage support of the agency's request for $6 
million for the National Ecological Observatory Network (NEON) within 
Biology's Research and Related Activities Account. This request would 
continue development of the NEON execution plan and of related 
cyberstructure, which is a key component of the NEON program. NEON has 
the potential to integrate existing environmental monitoring efforts by 
standardizing the way in which data are collected and thereby improving 
the Nation's overall ability to track environmental changes.
    ESA thanks Congress for its strong support of the National Science 
Foundation. As the only Federal agency to support science and education 
across all disciplines, NSF's contributions have been extremely 
valuable to the U.S. research enterprise. We hope that Congress will 
ensure the agency continues on this path, with support across all 
science disciplines and recognition of the vital role NSF plays in 
supporting non-medical biology.
                                 ______
                                 
  Joint Prepared Statement of the Biological Science Curriculum Study 
    (BSCS); the National Science Teachers Association; The Concord 
       Consortium; the Education Development Center, Inc.; TERC; 
   Exploratorium, San Francisco; and the National Science Education 
                         Leadership Association

    On behalf of the groups listed above which provide research and 
development to build the STEM infrastructure, and the instructional 
materials, professional development, and innovations in technology 
utilized by thousands of schools and students nationwide, we urge you 
to fund fiscal year 2006 K-12 programs at the National Science 
Foundation Education and Human Resources Directorate (EHR) at the 
fiscal year 2004 level of $944 million and provide $206 million in 
funding (the fiscal year 2004 level) for NSF's Elementary, Secondary 
and Informal Education (ESIE) programs.
    Strengthening science and math education is a core mission of the 
NSF. NSF is the only Federal agency with both science and scientific 
education in its charter. It has the mandate, depth of experience, and 
well-established relationships to build the partnerships for excellence 
in K-12 STEM education. The programs in the NSF Education and Human 
Resources (EHR) directorate are designed to support and improve U.S. 
STEM education at all levels and in all settings (both formal and 
informal). These programs are unique in their capacity to move 
promising ideas from research to practice, to develop new and improved 
materials and assessments, to explore new uses of technology to enhance 
K-12 instruction, and to create better teacher training techniques. 
NSF's highly-regarded peer review system that enlists leading 
scientists, mathematicians, engineers, and academicians to improve K-12 
STEM education programs is at the center of this education improvement 
infrastructure.
    The fiscal year 2006 administration budget request recommends major 
cuts to the Education and Human Resources Directorate, largely to 
elementary and secondary education programs. It appears these 
reductions are part of a policy decision to significantly pare the NSF 
role in program implementation, allowing work in this area to migrate 
to the Department of Education.
    Research, education, the technical workforce, scientific discovery, 
innovation and economic growth are intertwined. To remain competitive 
on the global stage, we must ensure that each remains vigorous and 
healthy. That requires sustained investments and informed policies. If 
NSF ceases to fulfill its educational mission of stimulating 
innovations and building capacity in our education systems, then that 
withdrawal would leave a critical gap in applied research and 
development and the infrastructure necessary to effect changes to K-12 
STEM education that could not easily be rebuilt.
    Unlike the NSF, the National Institutes of Health, or NASA, the 
U.S. Department of Education is not a research or development 
institution. The NSF has the capacity to incorporate the best from both 
the science and education R&D communities and can enlist scientists, 
academicians and researchers in a peer review process that generates 
and tests innovations in science-related disciplines for education. 
Unlike the Department of Education, the NSF has the ability to tap into 
basic cognitive research, fold in new content and new ways of teaching 
this content from the disciplines, and explore new technologies for the 
delivery of professional development and for assessing teachers and 
their students.
    Science education is unique because it is concerned with the 
special character of science and its related disciplines--it is at once 
a body of knowledge and a dynamic questioning activity. Because of the 
nature of science it is important to have scientists involved in 
critical questions of science education. It was the recognition of this 
interdependence between scientists and the science education enterprise 
that drove the identification of science education as a key part of the 
NSF agenda when the agency was founded. This connection will be lost if 
funding for the NSF Education and Human Services Directorate is reduced 
or if the responsibility for science education migrates to the U.S. 
Department of Education.
    Here is a small sample of the many K-12 science education programs 
funded by the National Science Foundation. These K-12 programs--and 
many similar science education innovations yet to come from the NSF--
will be crippled or lost without sustained funding to the NSF Education 
and Human Resources Directorate.
  --NSF supported the development of the Centers for Learning and 
        Teaching, which has resulted in partnerships between 15 major 
        universities and non-profit research organizations. The CLTs 
        are currently creating new knowledge for science education and 
        developing new leadership for science and mathematics by 
        producing 400 new Ph.D.s in science and mathematics education. 
        One of these centers, the Center for Informal Learning and 
        Schools, has worked with over 100 museum educators from 50 
        museums to create stronger partnerships between museums and 
        schools and represents the first serious examination of the 
        opportunities to better coordinate these two educational 
        systems. These centers, which study critical issues in 
        mathematics and science such as equity, assessment, curriculum 
        and teacher development, demonstrate the power of using the NSF 
        approach of field initiated research centers.
  --NSF supported a number of technology-based innovations such as 
        Microcomputer Based Labs, Molecular Workbench, and Handhelds in 
        Education.
    --Microcomputer Based Labs.--The idea of attaching electronic 
            sensors to computers for real time data collection and 
            analysis in education was invented in an NSF-funded project 
            called Microcomputer Based Labs (MBL). This idea was 
            directly inspired by the use of such sensors in science 
            research, and NSF understood the importance of applying 
            these ideas to education. This project spawned a small 
            industry that now has seven vendors that offer MBL products 
            to education in grades 3-14; an estimated 10 percent of all 
            science teaching labs in grades 9-14 use some MBL.
    --Molecular Workbench.--This is a sophisticated modeling package 
            developed under several NSF grants that makes the atomic 
            and molecular world easily accessible to students in grades 
            7-14. This is now built into hundreds of educational 
            activities and is use nationwide. Based on software used in 
            scientific research, the Molecular Workbench would not have 
            been developed without the kind of bridge between science 
            and science education that the NSF provides.
    --Handhelds in education.--The idea of using handheld computers in 
            the classroom was a novel idea to Palm when a team of 
            educators who were leaders of an NSF-funded center visited 
            them in 1995. The subsequent development of educational 
            applications and real-time data collection for handhelds 
            was seeded by grants and a contest sponsored by this 
            center. Handhelds are now one of the hottest ideas in 
            educational technology.
  --NSF supported the creation of an elementary school science support 
        infrastructure through the creation of 5 national centers 
        focused on improved teacher development in science. One of 
        these centers, the Exploratorium Institute for Inquiry, has 
        worked with improving the skills of science teacher development 
        staff in over 200 districts in 39 States. These centers 
        represented a critical partnership of scientists, science 
        educators and educational researchers and demonstrate a quality 
        that could only have been produced through the rigorous NSF 
        peer review process.
  --NSF supported the development of eight national Science and 
        Mathematics Implementation and Dissemination Centers. Two of 
        these centers, the EDC K-12 Science Curriculum Dissemination 
        Center and the EDC K-12 Mathematics Curriculum Center, have 
        provided high-quality instructional materials to school 
        districts nationwide, including those that are rural and 
        isolated, serve high populations of poor students, or have 
        limited access to research-based mathematics and science 
        education efforts. The Centers have worked in all 50 States, 
        reaching more than 1,000 districts. The combination of 
        services-seminars, resource materials, technical assistance, 
        and outreach-offered by the Centers has been found to 
        contribute significantly to districts' efforts to improve their 
        mathematics and science programs.
  --NSF supported the creation of Insights: An Elementary Hands-on 
        Inquiry Science Curriculum, one of three NSF-funded research-
        based elementary programs that have reached more than 15 
        percent of the elementary school population. For example, 
        Insights is in use in more than 1,000 school districts 
        nationwide and has been translated into both French and Spanish 
        for use in France, Colombia, and several other countries. The 
        Insights materials have been favorably reviewed by Expert 
        Panels assembled by NSF, as well as by the U.S. Department of 
        Education (ED). Insights are an example of the kinds of high 
        quality instructional materials that result from cross-
        pollination between scientists and educators encouraged by NSF.
  --NSF supported the Using Data Project, which draws on a decade's 
        worth of development of validated data-collection instruments 
        from prior NSF-funded projects, allowing a rigorous process for 
        school or district level data analysis and a step-by-step plan 
        for making decisions and taking action based on those data for 
        instructional improvements in mathematics and science 
        education. Canton City middle schools have doubled their 
        proficiency in mathematics on the Ohio State test from 2003-
        2004 by using a unique approach to data-driven decisionmaking 
        pioneered by TERC.
  --NSF supported the establishment of the Center for Urban Science 
        Education Reform (CUSER), which focused on providing 
        professional development and technical assistance for 22 school 
        districts across the country that were implementing standards-
        based science programs for the first time. CUSER responded to a 
        national need to address science education in urban schools and 
        served more than 30 of the Nation's largest and poorest urban 
        school districts. NSF's support served as a catalyst for 
        directing resources and attention to a nationally neglected 
        equity issue-bringing high quality science instruction to 
        inner-city students.
  --NSF supported Investigations in Data, Number and Space K-5 
        mathematics curriculum, developed by TERC and published by 
        Scott-Foresman, and now in classroom sets in 14 percent of 
        elementary schools nationwide. Students using reformed-based 
        elementary curriculum, including Investigations, consistently 
        scored higher than students in matched comparison groups using 
        more conventional curriculum in a tri-State study on State-
        mandated standardized tests. An ARC Center study included 
        outcomes on more than 100,000 students and all statistically 
        significant differences favored the reform students, including 
        the Iowa Test of Basic Skills. The superior results hold across 
        all student racial and income groups.
  --NSF supported the development of the first subject specific 
        (science) new teacher mentor program at the Exploratorium 
        Teacher Institute that has resulted in an increase in the first 
        5-year retention rate for new teachers from the traditional 50 
        percent to 90 percent. This required the developmental funding 
        of innovative ideas that is only available from an agency like 
        NSF.
  --NSF supported the creation of the on-line Masters Degree Program in 
        Science Education jointly developed by TERC and Lesley 
        University. Teachers enrolled in the online courses 
        outperformed teachers taking the same courses on-campus--in 
        terms of science learning, understanding of scientific inquiry, 
        and lesson planning. In addition, the online students spent on 
        average about 2 hours per week more on the course than the on-
        campus students.
                                 ______
                                 
      Prepared Statement of the American Sportfishing Association

    The American Sportfishing Association (ASA) recommends the 
following as the subcommittee considers appropriations for NOAA-
Fisheries for fiscal year 2006. The American Sportfishing Association 
is a non-profit trade association whose 700 members include fishing 
tackle manufacturers, sport fishing retailers, boat builders, State 
fish and wildlife agencies, and the outdoor media.
    The ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation. It is important to note that sportfishing provides $116 
billion in economic output to the economy of the United States each 
year.
    An important but often under-represented NOAA constituency is the 
Nation's 44 million sportfishing anglers, who collectively provide $116 
billion in economic impact each year to the U.S. economy. The 
importance of adequately including this group and their activities in 
management decisions cannot be overstated. Sportfishing in marine 
waters alone provides a $31 billion economic impact to the Nation's 
economy.

                            HABITAT PROGRAMS

    Federal resource agencies are dependent on the assistance of 
volunteers and matching funds from the private sector to accomplish 
habitat restoration goals. NOAA's Restoration Center Community-based 
Restoration Program is a premier example of a Federal agency providing 
funds that are matched by non-Federal monies to accomplish habitat 
restoration that would otherwise be accomplished at a greatly 
diminished scale. For example, the FishAmerica Foundation, one of the 
NOAA Community-based Restoration Center program partners matches NOAA 
funds up to five times with its funds, funds of others, and in-kind 
matching from others at project sites. The President's request of $15.2 
million is appreciated, but we request the committee increase funding 
for this valuable program to $20 million for fiscal year 2006.

                         RECREATIONAL FISHERIES

    With 10 million participants and 91 million fishing days, saltwater 
recreational fishing is the fastest growing segment of sportfishing in 
the United States. The Association remains disappointed in the 
inadequate attention that NOAA-Fisheries invests in recreational 
angling. Sportfishing in marine waters alone provides $8.1 billion in 
salaries and wages to nearly 300,000 wage earners in coastal areas.
    Good socio-economic information is critical for effective marine 
resources management efforts, and the ASA applauds the administration's 
requested increase of $5.5 million (for a total of $9.6 million) for 
additional economic and social science research, data collection and 
analysis. The ASA asks Congress to assure that NOAA-Fisheries utilizes 
this money for assessment of impacts associated with recreational as 
well as commercial fishing activity and provides adequate data for 
sportfishing in marine waters.
    The ASA proposes a nationwide stewardship program designed to 
enhance sustainable marine recreational fishing through cooperative 
research, public awareness, and development of technology and 
techniques. A partnership between government, the sportfishing industry 
and recreational anglers, the program will direct and fund research 
aimed at reducing unintended mortality from recreational fishing. The 
primary purpose of such a project is to fund research on ways to reduce 
mortality in catch-and-release recreational fishing. A secondary 
purpose of the project is to fund outreach programs aimed at promoting 
smart fishing techniques and gear. Based on the long history of 
conservation by anglers and the sportfishing industry, the ASA feels it 
is necessary to give anglers additional opportunities to help preserve 
their long-treasured marine resources. The ASA asks the committee to 
provide $500,000 for the initial organization of this project and 
direct these funds to NOAA's recreational fishing office.
    The ASA urges Congress to remind NOAA-Fisheries of the 
opportunities associated with the increasing popularity of saltwater 
recreational fisheries, and NOAA-Fisheries should direct suitable 
resources to their conservation partners to better manage these 
resources.

                    STOCK ASSESSMENT AND MONITORING

    NOAA-Fisheries has not fully demonstrated an ongoing and 
comprehensive commitment to modernization and improvement of fisheries 
stock assessment and management of marine systems. It will take a 
sustained commitment on the part of the administration, Congress and 
partner agencies to ensure that new these initiatives are in place, 
sustained and effective over the long-term.
    The ASA recognizes and supports the fiscal year 2006 President's 
budget request to increase funds for fisheries stock assessments and 
management by $4.5 million to a total of $25.397 million, but the NOAA-
Fisheries stock assessment program needs to build to the $100 million 
level over the next 5 years if it is to be effective in providing data 
for proper management of marine stocks. The ASA recommends a total 
increase of an additional $10 million dollars to begin building this 
program to its needed level. Funds for stock assessments could be 
allocated by the marine sanctuaries program. This program is at times 
in conflict with proven management measures and the ASA believes it is 
more important to first establish a solid stock assessment program 
before experimenting with the theoretical concept of marine 
sanctuaries.

                        ANADROMOUS FISHERIES ACT

    The ASA remains perplexed and troubled over the continuing low 
level of funding for implementation of the Anadromous Fisheries Act. 
The Anadromous Fisheries Act budget line has traditionally been used to 
fund activities that cannot be supported through other Federal and 
State funds, and the fisheries management community has been unable to 
address the needs of most anadromous fish stocks due to a severe lack 
of resources. Therefore, the ASA urges Congress to fund the Anadromous 
Fisheries Act grants to States at $8 million.
                                 ______
                                 
     Prepared Statement of the Science, Technology, Engineering & 
                 Mathematics (STEM) Education Coalition

    On behalf of the science, technology, engineering, mathematics, 
higher education and business groups listed below, we urge you to 
continue the Federal commitment to K-12 science, technology, 
engineering, and mathematics (STEM) education. In particular, we urge 
you to increase spending for the National Science Foundation (NSF) to a 
level that would permit $200 million in funding for the NSF Math and 
Science Partnership (MSP) program, and restoration of funding for the 
NSF Education and Human Resources Directorate to fiscal year 2004 
levels.
    The current fiscal year 2006 budget proposes to cut education 
programs at the NSF by 12 percent ($737 million, down from $841 million 
in fiscal year 2005). Programs under the Elementary, Secondary and 
Informal Education Division would be cut 22.6 percent ($140 million, 
down from $181 million in fiscal year 2005), and the Research, 
Evaluation, and Communication (REC) budget would be cut by more than 43 
percent ($33 million, down from $59 million in fiscal year 2005). The 
fiscal year 2006 NSF Math and Science Partnerships (MSPs) would see a 
24 percent cut to $60 million.
    In this tight budget environment, we understand that difficult 
choices must be made. Increased and continued investment in these 
programs is critical, however, if we want to ensure that our students--
the future scientists, technologists, engineers, mathematicians, 
workers, and others responsible for our Nation's future innovations, 
our national security, our economy, and our quality of life--receive a 
world class education in the sciences and mathematics, and that we have 
the research base essential to improving it.
    The NSF MSPs are working to develop scientifically sound, model 
reform initiatives that will improve teacher quality, develop rigorous 
curricula, and increase student achievement in these areas. These 
programs are not duplicative of the U.S. Department of Education Math 
and Science Partnerships; in fact, without one program, the other 
program is significantly weakened. The State-based ED MSPs are not 
capable of producing the needed research in these areas and look to the 
NSF MSPs to develop proven models and tools necessary to enhance 
teacher quality and student achievement.
    Other programs in the NSF Education and Human Resources (EHR) 
directorate, such as Instructional Materials Development, the Teacher 
Professional Continuum, and the Centers for Learning and Teaching, are 
designed to support and improve both formal and informal STEM education 
at all levels. These programs are unique in their capacity to move 
promising ideas from research to practice, to develop new and improved 
materials and assessments, to explore new uses of technology to enhance 
K-12 instruction, and to create better teacher training techniques.
    NSF's peer review system that enlists leading scientists, 
mathematicians, engineers, and academicians to improve K-12 STEM 
education programs is at the center of this education improvement 
infrastructure. The NSF peer review model is highly regarded in the 
scientific community and the programs produced under this approach are 
developed, tested, and evaluated to insure their efficacy.
    American Association of Physicists in Medicine; American 
Association of Physics Teachers; American Astronomical Society; 
American Chemical Society; American Educational Research Association; 
American Geological Institute; American Geophysical Union; American 
Institute of Aeronautics and Astronautics; American Institute of 
Biological Sciences; American Institute of Physics; American 
Meteorological Society; American Physical Society; American 
Physiological Society; American Society of Agronomy; American Society 
of Civil Engineers; American Society of Mechanical Engineers; American 
Sociological Association; ASEE Engineering Deans Council; Association 
of State Supervisors of Mathematics; Biological Sciences Curriculum 
Study (BSCS); Center for Educational Outreach, Whiting School of 
Engineering, Johns Hopkins University; Chabot Space & Science Center; 
Crop Science Society of America; Delta Education; Education Development 
Center, Inc.; Exploratorium; Institute of Electrical & Electronics 
Engineers-USA; Institute of Food Technologists; International 
Technology Education Association; Mathematical Association of America; 
Michigan State University; Museum of Science, Boston; National 
Association of Biology Teachers; National Council of Teachers of 
Mathematics; National Education Knowledge Industry Association; 
National Science Teachers Association; Optical Society of America; 
Project Lead the Way; Society of Automotive Engineers; Society of Women 
Engineers; Soil Science Society of America; SPIE--The International 
Society for Optical Engineering; Technology Student Association; TERC; 
The Association of American Geographers; The Federation of Behavioral, 
Psychological, & Cognitive Sciences; Triangle Coalition.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network

    The Marine Fish Conservation Network (MFCN) is pleased to share its 
views regarding certain National Marine Fisheries Service (NMFS) 
programs in the National Oceanic and Atmospheric Administration's 
(NOAA) fiscal year 2006 budget request. We ask that this statement be 
included in the hearing record for the fiscal year 2006 Commerce, 
Justice, State, and the Judiciary Appropriations Bill. We are 
requesting a budget increase of $51 million from the administration's 
requested $77.7 million for NMFS programs in the fiscal year 2006 
budget to be allocated for stock assessments, fishery observer 
programs, essential fish habitat, vessel monitoring systems, bycatch 
reduction, cooperative research and ecosystem-based management as 
described below.
    MFCN is a national coalition of more than 170 environmental 
organizations, aquariums, commercial and recreational fishing 
associations, and marine science groups dedicated to conserving marine 
fish and promoting their long-term sustainability. We greatly 
appreciate the funding this subcommittee has provided for marine fish 
conservation programs within NMFS in the past and we look forward to 
working with the subcommittee to enact adequate levels of funding for 
the coming fiscal year.
    In 2004, the presidentially appointed U.S. Commission on Ocean 
Policy (USCOP) released a report, which outlined a series of 
recommendations designed to enhance and reform the current Federal 
fisheries management system. The congressional response to this call-
to-action to protect the health and long term sustainability of our 
ocean resources has been heartening, and a bipartisan effort is 
currently underway to address the most critical issues identified by 
the USCOP. Unfortunately, the President's fiscal year 2006 NOAA budget 
request does not provide adequate new funding for many of the priority 
program areas identified by the USCOP. The NMFS funding request for 
fiscal year 2006 amounts to a 12 percent reduction (almost $100 
million) in funding for NMFS. There are seven areas of the NMFS budget 
where we believe the requested funding levels need to be increased to 
help the agency fulfill its obligations as the Federal Government's 
fishery management agency.

                           STOCK ASSESSMENTS

    President's Request.--Total of $25.4 million.
    MFCN Request.--Total of $30 million.
    The USCOP noted that ``accurate, reliable science is critical to 
the successful management of fisheries.'' While we are pleased that the 
administration requested an almost $5 million increase in the expanding 
stock assessments line item, we are concerned that funding in this area 
is insufficient. The NOAA Office of Science & Technology estimates that 
the funds needed to fully assess all commercially important stocks 
total more than $300 million. The administration's line item request 
for a $2 million increase to strengthen living marine resource 
monitoring would provide for an estimated 250 additional charter-vessel 
days at sea (DAS)--an increase of approximately 10 percent over the 
fiscal year 2005 level of 2,500 days. Still, NOAA estimates that 7,566 
DAS are needed to fully modernize and expand its stock assessment 
capabilities. At the current level of funding ($20.5 million), there is 
a deficit of 5,066 days at sea, many of which are used to conduct stock 
assessments. The impact of this deficit is demonstrated by the fact 
that the status of only 33 percent of the 909 ocean fish populations 
managed by NMFS is currently known. This information void is due in 
large part to a lack of funding for basic research and stock 
assessments. An additional $4.6 million to the administration's request 
for $25.4 million to expand stock assessments, would further this 
essential work.

                       FISHERY OBSERVER PROGRAMS

    President's Request.--Total of $26.0 million.
    MFCN Request.--Total of $43.4 million.
    Observer programs are vital to the sustainable management of our 
Nation's fisheries because they provide critical data on the amount and 
type of ocean wildlife killed due to fishing. While we commend the 
administration's efforts to expand and increase funding for Federal 
fishery observer and enforcement programs, the proposed level of 
funding of $26 million is not sufficient to address current management 
needs. The President's fiscal year 2006 budget request amounts to a 
$1.5 million increase overall from fiscal year 2005 funding levels, but 
funding for certain critical regions would be cut. In New England, a 
region plagued by chronic overfishing and mismanagement, the funding 
level for observers would be cut by $3.5 million from the fiscal year 
2005 enacted level. We recommend that funding for the national observer 
program be increased but not at the expense of important regional 
programs such as New England. The $1.5 million requested increase for 
the Observers/Training line item will enable NOAA to employ observers 
in 41 fisheries. NMFS estimates that an additional 22 fisheries outside 
of the 41 with observers currently do not have observer coverage or 
have very low levels of coverage. The estimated total cost to implement 
a small ``baseline'' or ``pilot-level'' program to observe these 22 
additional fisheries is approximately $17.4 million. Recognizing that a 
comprehensive nationwide observer program would demand a significant 
increase in funding, we recommend that Congress provide funding to 
initiate pilot programs in those fisheries currently without observer 
programs. We request that Congress appropriate $43.4 million to expand 
observer programs into all 63 managed fisheries and provide enhanced 
coverage for priority fisheries.

                         ESSENTIAL FISH HABITAT

    President's Request.--Total of $4.7 million.
    MFCN Request.--Total of $15 million.
    Essential fish habitats (EFH) are those waters and substrate upon 
which fish depend for reproduction and growth. Land-based activities 
and destructive fishing practices threaten the viability of these 
habitats and the sustainability of the fish populations that depend on 
them. While the Sustainable Fisheries Act of 1996 gave NMFS a clear 
mandate to identify and protect EFH, too little has been done to 
protect these habitats. The President's budget request for fiscal year 
2006 continues this trend of under-funding this critical element of 
sustainable fisheries management. While we support efforts to reduce 
fishing impacts on essential fish habitat, the President's fiscal year 
2006 budget request of $500,000 to address this issue is inadequate. 
This level of funding is not sufficient for protecting the EFH for 909 
federally managed fish stocks. The administration has also requested 
$999,000 to refine EFH designations. While this represents an increase 
from fiscal year 2005 enacted levels, this request does not provide the 
level of funding necessary to support the research and analysis needed 
to more accurately identify and define areas to be designated as EFH.

                       VESSEL MONITORING SYSTEMS

    President's Request.--Total of $9.3 million.
    MFCN Request.--Total of $18.3 million.
    We commend the administration's commitment to establishing vessel-
monitoring systems (VMS) to better manage our Nation's fishery 
resources. VMS are integral to enhancing data collection, improving 
enforcement capabilities and ensuring greater safety at sea. VMS 
programs assist fishery managers and enforcement officials by providing 
information when a vessel unlawfully enters a closed area or is fishing 
beyond the end of a regulated fishing season. The USCOP highlighted the 
importance of VMS in its final report and recommended that fishery 
managers and enforcement officials ``maximize the use of the Vessel 
Monitoring System (VMS) for fishery-related activities by requiring 
that VMS with two-way communication capability be phased in for all 
commercial fishing vessels receiving permits under federal fishery 
plans, including party and charter boats that carry recreational 
fishermen, incorporating VMS features that assist personnel in 
monitoring and responding to potential violations, and identifying 
state fisheries that could significantly benefit from VMS 
implementation.'' Of the $9.3 million requested by the administration, 
$4.8 million is needed to support and maintain the existing 
infrastructure of the system. The remaining $4.5 million is to cover 
the costs of purchasing and installing units on approximately 2,000 
additional vessels. There are an estimated 10,000 commercial fishing 
vessels in the United States, therefore to ensure more widespread 
implementation of VMS programs, we recommend funding be increased $18.3 
million.

                           BYCATCH REDUCTION

    President's Request.--Total of $2.8 million.
    MFCN Request.--Total of $13 million.
    Bycatch is the incidental catch of non-target species and 
represents a significant portion of overall fish mortality. In order to 
ensure the long-term sustainability of our Nation's fish populations, 
marine mammals and other protected species, it is crucial that programs 
aimed at reducing wasteful bycatch receive adequate funding. The 
President's budget request for fiscal year 2006 for the Reducing 
Bycatch Initiative is $2.8 million, almost $1 million less than the 
current funding level of $3.7 million and $2 million less than fiscal 
year 2004 funding levels. Greater funding is needed to develop and test 
bycatch reduction technologies, to improve cooperative research 
activities and coordination with fishermen, to disseminate information 
and to hire additional observers. We recommend that Congress provide 
$13 million in fiscal year 2006 for the Bycatch Reduction Initiative to 
ensure that measurable progress is made towards decreasing bycatch and 
bycatch mortality.

                          COOPERATIVE RESEARCH

    President's Request.--Total of $9.5 million.
    MFCN Request.--Total of $20 million.
    Cooperative research programs provide an important opportunity for 
fishermen and scientists to work together to investigate and develop 
new fishery technologies, to assess the status of fish stocks and their 
associated habitats, and to share their individual expertise. Involving 
fishermen in the scientific process also reduces industry skepticism 
regarding the integrity and veracity of the science upon which 
management measures are based. The USCOP recommended that Congress 
increase support for an expanded, regionally based cooperative research 
program in NOAA that coordinates and funds collaborative projects among 
scientists and commercial and recreational fishermen. (USCOP 
Recommendation 19-9) The administration's requested budget for fiscal 
year 2006 cuts funding for cooperative research by almost $10 million. 
Investing in cooperative research programs will bolster the credibility 
of science and enhance the rapport between scientists and fishermen. As 
such, funding for cooperative research should be maintained at $20 
million for fiscal year 2006.

                       ECOSYSTEM-BASED MANAGEMENT

    President's Request.--Total of $0.
    MFCN Request.--Total of $4 million.
    In 2004, the USCOP noted that ``[t]o be effective, U.S. ocean 
policy should be grounded in an understanding of ecosystems, and our 
management approach should be able to account for and address the 
complex interrelationships among the ocean, land, air, and all living 
creatures, including humans and consider the interactions among 
multiple activities that affect entire ecosystems.'' To ensure the 
long-term health and productivity of marine ecosystems, the Commission 
also advised fishery managers to move away from the traditional single-
species management strategy and towards an ecosystem-based approach to 
management. (USCOP Recommendation 19-21) This commitment to ecosystem-
based management was echoed in the U.S. Ocean Action Plan, the Bush 
administration's response to the USCOP report. Despite pledges from the 
administration to initiate efforts to transition to a more ecosystem-
based approach to marine resource management, the requested budget for 
fiscal year 2006 contains no funding for ecosystem-based management.
    In fiscal year 2004, Congress allocated approximately $2 million 
for NMFS to conduct ecosystem pilot projects in four regions including 
the South Atlantic, the Mid-Atlantic, New England and the Gulf of 
Mexico. Each of the four regions received a grant of $225,000 to 
address ecosystem governance at the fishery management council level. 
Remaining funds were used to conduct technical workshops and develop 
quantitative decision support tools. While the ecosystem pilot projects 
are a step in the right direction, additional funding is needed to 
build upon existing projects and expand the pilot programs into other 
regions. Increasing funding for ecosystem-based management to $4 
million would ensure that the financial resources necessary to develop 
programs and initiatives that are consistent with the goal of 
ecosystem-based management are available to the eight designated 
Federal fishery management regions.
    Thank you for considering our request for increasing funding for 
these important fishery management programs. These increases will go a 
long way toward ensuring that NMFS can better manage and protect our 
Nation's fish resources now and for the future.
                                 ______
                                 
                Prepared Statement of the Navajo Nation

                              INTRODUCTION

    Chairman Shelby, Ranking Member Murkowski and members of the 
subcommittee, thank you for this opportunity to provide comments on 
behalf of the Navajo Nation with regard to the President's proposed 
fiscal year 2006 Budget for funding Indian public safety programs. My 
name is Hope MacDonald-Lone Tree.\1\ I am an elected delegate to the 
Navajo Nation Council and serve as the Chairperson of the Public Safety 
Committee of the Navajo Nation Council. I also serve as the Navajo 
Nation representative to the joint Bureau of Indian Affairs/Tribal 
Budget Advisory Council's Workgroup on Indian Law Enforcement, a 
national workgroup that advocates for Indian law enforcement budgetary 
needs.
---------------------------------------------------------------------------
    \1\ Hope MacDonald-Lonetree, Chairperson, Public Safety Committee, 
Navajo Nation Council, Window Rock, AZ.
---------------------------------------------------------------------------
    As described in detail below, the public safety situation in Indian 
Country in general, and on the Navajo Nation in particular, is dire. We 
are happy to see that the President's proposed budget provides some 
additional funding to address this situation. However, we are concerned 
that the funding is still insufficient, once it trickles down to the 
Navajo Nation, to even begin to achieve an acceptable level of public 
safety on our vast reservation.

                          APPROPRIATIONS NEEDS

    Immediate and Urgent Navajo Nation Need ($3,133,280).--In the late 
1950's and early 1960's, the Navajo Nation constructed six detention 
facilities. The Tuba City detention facility suspended its operation in 
Winter 2004 due to crumbling ceilings and walls, exposed conduits and 
weakening foundations. In January of this year, the facility suffered 
an electrical fire and has subsequently been condemned. Other 
facilities in Chinle, Kayenta and Dilkon are in similar shape, 
overcrowded or non-existent. The Navajo Nation seeks funding for four 
modular bunkhouse buildings at a cost of $783,320 each, or a total cost 
of $3,133,280, to address an urgent need to provide adequate and decent 
inmate housing.
    Permanent Navajo Facilities Funding--Planning and Design ($1 
Million Per Facility for Seven Facilities).--The Navajo Nation is 
planning to construct seven permanent detention facilities in three 
phases. Phase I involves Tuba City, Chinle and Crownpoint; Phase II 
involves Shiprock and Dilkon; and Phase III involves Kayenta and Fort 
Defiance. The estimated cost for planning and design of each facility 
is approximately $1 million, for a total planning and design cost of 
all facilities of $7 million.

             PUBLIC SAFETY--A GOVERNMENT'S FIRST OBLIGATION

    The first thing that a people demand of their government is that it 
act to ensure the public safety. A crime-free and safe environment is 
essential to the vitality of any community. It is also critical to the 
development of an economic base, including attracting investment as 
well as retaining skilled workers who have the option of living where 
they please. In his 2005 State of the Union Address, President Bush 
proclaimed, ``Our third responsibility to future generations is to 
leave them an America that is safe from danger, and protected by peace. 
We will pass along to our children all the freedoms we enjoy--and chief 
among them is freedom from fear.'' We agree with the President, but 
because of the Federal Government's failure to provide adequate 
resources for public safety on the Navajo Reservation, too many Navajo 
families do not enjoy freedom from fear.
    The Navajo Nation government takes its responsibility to address 
the public safety needs of its citizenry very seriously. Unfortunately, 
we face great challenges that principally arise out of the poor 
economic conditions on the Navajo Nation. Some of these conditions can 
be directly traced to actions by the Federal Government in violation of 
its trust responsibility to the Navajo Nation. Many of them can be 
corrected if the Federal Government fully lived up to its trust 
responsibility, which includes funding a basic level of public safety 
services within our reservation boundaries.
    The Navajo Nation Public Safety Division is responsible for an area 
the size of West Virginia, with a resident population of approximately 
200,000 and, with tourism, a transient population of hundreds of 
thousands of non-Indians every year. The Navajo Nation polices this 
area with a small force of officers (see discussion below). In addition 
to responding to community incidents, the Navajo police force also 
provides protection to major dams and power plants, as well as hundreds 
of miles of interstate highways, high voltage transmission lines and 
gas pipelines. On 9/11, Navajo police officers moved quickly to secure 
as many of these high-value facilities as our limited resources would 
allow.

         THE HIGH INCIDENCE OF VIOLENT CRIME IN INDIAN COUNTRY

    Although violent crime has declined throughout the United States in 
recent years, tragically there is no evidence of a decline in Indian 
Country. According to DOJ statistics, Native men and women are still 
more than twice as likely to be a victim of a violent crime--whether 
you are talking about child abuse, sexual assault, homicide, or 
assault--than any other racial or ethnic group. Native youth are 
significantly more likely to be the victims of rapes, assaults, 
shootings, beatings and related crimes than their counterparts. Nearly 
a third of all American Indian and Alaska Native women will be the 
victim of sexual assault in their lifetime, the highest rate of any 
racial or ethnic group. It takes no imagination whatsoever to 
understand the scarring impact of these high crime rates not only on 
the victims, but also on their communities. In the Native way, when one 
person is harmed, everyone is harmed. Adequate funding for the 
provision of basic public safety services is an essential part of any 
strategy to reduce the Indian Country crime rate and provide the same 
safe and secure environment for Native peoples that is enjoyed by most 
other Americans.
    The U.S. Attorney's Office in Flagstaff estimates that violent 
crime on the Navajo reservation is six times higher than the national 
average. Increased crime includes alcohol and drug abuse, domestic 
violence and child sexual abuse.
    We cannot address domestic violence on Navajo because we cannot 
separate the abuser from the victim due to lack of detention 
facilities--and the abusers know that.
    We cannot protect our children from sexual predators. Just in one 
community, there were 100 reported cases of child sexual abuse in 1 
month. We cannot protect our families without somewhere to put the 
perpetrators threatening our communities.
    Navajo Nation averages one officer for every 4,000 people, compared 
to the national average of three officers per 1,000 people.
    Our officers often perform alone, without partners, and without 
radio communication for backup. In one incident I'd like to share, an 
officer responded to a call and found a man beating his wife and 
family. The wife did not want him arrested. She knew that he would not 
be detained long due to the lack of facilities, and feared that he 
would return even more violent. Because she did not want him arrested, 
she attacked the officer herself and tried to get his gun. The officer 
managed to get away, leaving the abuser with his family.
    In another sad incident, a young boy was arrested for attacking his 
brother. After a short hour in jail, he was let out. A week later, he 
was arrested for attacking his sibling. He was again released after a 
short time in jail. He was later arrested for stabbing his mother.
    Criminal incidents of recidivism such as that one are very high on 
the reservation all due to the factors I have described: criminals are 
allowed to return to their community without incarceration; we cannot 
incarcerate criminals without putting them at significant physical and 
health risk; in many instances, tribal court is just a revolving door 
for many criminals; and criminals and their victims have a complete 
disregard for our criminal justice system. Communities across the 
reservation and neighboring towns are at risk. Public safety officers 
are at risk.

           THE SHOCKING STATE OF INDIAN DETENTION FACILITIES

    This past September, the DOJ Office of Inspector General published 
its study of Indian detention facilities entitled ``Neither Safe Nor 
Secure--An Assessment of Indian Detention Facilities'' (Report No. 
2004-I-0056). The Inspector General's office was shocked by what it 
found. The Inspector General's report was only the latest in a series 
of reports and testimony about the decrepit condition of Indian Country 
detention facilities.
    In the late 1950's and early 1960's, the Navajo Nation constructed 
six detention facilities. Of our many urgent public safety needs, our 
highest priority is to replace or fully renovate these out-of-date and 
dilapidated facilities. For example, the Tuba City detention facility 
suspended its operation in Winter 2004 due to crumbling ceilings and 
walls, exposed conduits and weakening foundations. In January of this 
year, the facility caught fire due to an electrical short. Other 
facilities in Chinle and Shiprock are in roughly the same poor 
condition. Our remaining facilities at Kayenta, Crownpoint and Window 
Rock are only a few years away from joining Tuba City as facilities not 
fit to house animals, much less human beings. The BIA does not operate 
these facilities as the Navajo Nation, pursuant to the Indian Self 
Determination and Assistance Act, has contracted to carryout BIA law 
enforcement programs on the reservation. However, the same funding 
shortfalls that have led to problems in BIA-operated detention 
facilities have affected the Navajo Nation-operated detention 
facilities. Just to bring our detention facilities up to the national 
standard will require $140 million for Navajo.

 HISTORIC FUNDING LEVELS FOR INDIAN COUNTRY PUBLIC SAFETY PROGRAMS--A 
                             QUIET CRISIS?

    In July 2003, the U.S. Commission on Civil Rights released a 
detailed report on Federal funding and unmet needs in Indian Country 
entitled ``A Quiet Crisis''. The Commission engaged in a comprehensive 
analysis of Federal funding of Native programs across all departments, 
concluding that the Federal Government was not meeting its trust 
obligation to Indian tribes. Among the report's many findings, was that 
``. . . per capita federal spending on Native Americans was higher than 
spending for the general population between 1975 and 1980. Between 1980 
and 1985, however, Native American expenditures declined while those 
for the general population increased, until approximate equivalency. 
After 1985, per capita Native American and general population spending 
did not increase at the same rates, resulting in a wide gap.''
    The Commission found that ``[p]erhaps one of the most urgent needs 
in Indian Country is access to basic law enforcement . . .''. The 
Commission noted that the level of police coverage in Indian Country is 
much lower than for other areas of the United States.
    The Commission commented at length on the sporadic and minimal 
levels of funding for tribal courts, as well as on the substandard 
conditions at over-crowded tribal detention facilities, where funding 
also has been scarce. Despite some increases in funding between 1998-
2003, the Commission noted a downward trend ever since. The Commission 
concluded: ``Funding for criminal justice systems in Indian Country 
remains insufficient to meet the immediate needs of these communities, 
much less establish a framework for eventual self-sufficiency. The 
potential for even modest progress will be undone if funding cutbacks 
continue as they have in recent years.''

                         DEPARTMENT OF JUSTICE

    The President has proposed consolidating a number of Indian 
programs in the Justice budget into one flexible COPS/OJP Indian Grant 
program funded at $51.6 million. In fiscal year 2005, for example, 
Indian programs were funded as follows: Tribal courts, $7.9 million; 
Alcohol and substance abuse, $4.9 million; Indian Prison Grants, $5 
million; and Indian Alcohol & Crime Demonstration Program, $5.4 
million. Based on discussions with DOJ budget personnel, historical 
funding for Indian programs at DOJ is as follows:

                     FUNDING FOR DOJ INDIAN PROGRAMS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
2004 Actual.............................................            49.4
2005 Enacted............................................            47.4
2006 Request............................................            51.6
------------------------------------------------------------------------

    The increase from 2004 to 2006 is 4.5 percent or about 2.25 percent 
on a yearly basis. This increase barely keeps pace with inflation. The 
President has proposed to nearly eliminate the COPS program, as well as 
several other programs that tribes have accessed. It is not clear from 
the budget documents to what extent these cuts would impact Indian 
tribes.

  WORKING TOGETHER THE CRISIS IN INDIAN COUNTRY PUBLIC SAFETY CAN BE 
                               ADDRESSED

    Thank you for this opportunity to share the concerns of the Navajo 
Nation. The Navajo Nation looks forward to working closely with the 
committee to address public safety concerns in Indian Country. Together 
we can assure a better life for America's first peoples. Please do not 
hesitate to contact me if you have any questions or if we can be of any 
assistance.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman, thank you for the opportunity to offer the 
recommendations of The Nature Conservancy on the fiscal year 2005 
budget for the National Oceanic and Atmospheric Administration (NOAA).
    The Conservancy recommends the following funding levels for 
programs with which we work closely and that make important and 
substantive contributions to effective and lasting conservation of 
coastal and marine biological diversity:

------------------------------------------------------------------------
                                                           Change From
                                       TNC  Recommends  Fiscal Year 2005
------------------------------------------------------------------------
NOAA Oceans and Coasts (NOS):
    Coastal Zone Management--Grants        $90,000,000      +$23,000,000
     to States......................
    Coastal Services Center.........        23,000,000          +328,000
    Pacific Services Center.........         2,300,000           +50,000
    Coastal Change Analysis.........           500,000           ( \1\ )
    Coastal Storms \2\..............         2,903,000          +403,000
    NERRS--Operation................        22,000,000        +5,600,000
    NERRS--Acquisition/Construction.        15,000,000        +6,000,000
    Coastal and Estuarine Land              60,000,000       +17,700,000
     Conservation Program...........
    National Marine Sanctuaries             51,000,000           ( \1\ )
     Program--Operation.............
    National Marine Sanctuaries             10,000,000          +144,000
     Program--Acquisition/
     Construction...................
    Coral Reef Conservation.........        30,500,000        +2,500,000
NOAA Fisheries (NMFS):
    Fisheries Habitat Restoration/          20,000,000        +1,000,000
     Community-based Restoration....
    Pacific Salmon Recovery Program         90,000,000           ( \1\ )
     \2\............................
    Cooperation with States (ESA             5,000,000        +4,100,000
     Sec. 6 grants to States).......
NOAA Satellites (NESDIS): Coral Reef           737,000           +37,000
 Monitoring \2\.....................
NOAA Research (OAR)--Global Change
 Program:
    Sector Applications Research             2,600,000           ( \2\ )
     Program (SARP) \2\.............
    Regional Integrated Science and          4,800,000         +800,000
     Assessment (RISA) \2\..........
------------------------------------------------------------------------
\1\ No change.
\2\ Requested level equal to the President's fiscal year 2006 budget
  request.

    The Nature Conservancy implements a growing number of site specific 
marine conservation programs in all U.S. coastal and Great Lakes States 
as well as in 28 other nations. A science-based, nonprofit 
organization, the Conservancy works in collaboration with local 
residents, partner organizations, government agencies and other 
stakeholders to identify, protect and manage significant habitats and 
natural systems. We employ pragmatic, non-confrontational strategies to 
reduce threats to biodiversity and ensure the long-term health and 
function of ecosystems.
    The Conservancy works to identify priorities for coastal and marine 
conservation through marine ecoregional plans. We identify present and 
likely future threats to marine biological diversity before attempting 
to identify appropriate strategies for conservation. At over a hundred 
marine sites around the world, the Nature Conservancy has used a 
variety of strategies for marine conservation including habitat 
restoration of important nursery and spawning areas, removal of 
invasive species, coastal land acquisition, private conservation of 
submerged lands, elimination of destructive practices, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems. No 
single strategy works everywhere and at every site, multiple 
conservation approaches are needed. The selection of appropriate 
approaches depends on the biological, socioeconomic, and political 
circumstances at each site.
    The National Oceanic and Atmospheric Administration (NOAA) is an 
important partner to the Conservancy in many aspects of our approach to 
conservation:
  --We rely upon NOAA's data as well as their research and monitoring 
        of coastal and marine systems and have several shared 
        priorities on which we collaborate.
  --We rely on their programs that support site-based conservation--
        those that fund activities such as conservation and restoration 
        and those that provide for management of coastal and marine 
        systems.
  --Finally, their support for State and local implementation and 
        educational programs help to ensure that human capacity exists 
        to address environmental management issues at the scale at 
        which they are best managed.

                 RESEARCH, MONITORING, AND OBSERVATIONS

    Federal investments in marine science have decreased over the past 
decade and information that is collected is often not available to 
ocean and coastal resource managers grappling with the difficult task 
of balancing competing uses of marine resources. The highest priority 
in national ocean and coastal research programs should be the science 
and information needs of resource managers including national, State 
and local coastal agencies. There is an urgent need for better 
information that is readily available to guide the management decisions 
affecting nearshore ecosystems where habitat loss and intensive use now 
threaten the survival of living marine resources. The Conservancy has 
worked closely with Coastal Service Center and NOAA's Coral Reef 
program on a number of shared interests. It is our experience that both 
programs support research and monitoring that directly addresses the 
needs of managers on the ground.
    By supporting a wide variety of scientific work and partnering with 
a multitude of stakeholders, The Coastal Services Center (CSC) and the 
Pacific Services Center (PSC) have helped to forge new partnerships and 
increase our overall understanding of how the coasts work. For example, 
CSC has worked with the Conservancy to:
  --fund regional planning in the Pacific Northwest to identify 
        important habitats and design effective conservation strategies 
        for biological diversity; and
  --provide data, analysis, and mapping support for the Northwest 
        Florida Greenway Partnership--a partnership between the Air 
        Force, State of Florida, U.S. Fish and Wildlife Service, the 
        Conservancy, and many others to manage development encroaching 
        on the USAF training area and to protect vast forests and 
        natural areas in Northwest Florida.
    By maintaining a strong service orientation and working with 
partners like The Nature Conservancy, CSC and PSC consistently use 
Federal dollars for highest leverage results. The Coastal Storms 
program--which is led by CSC--is one of the first research programs to 
be fully integrated across NOAA and yields information that is valuable 
for understanding and predicting the impacts of coastal storms such as 
flooding and storm surges. The Coastal Change Analysis program looks at 
developing topographic/bathymetric maps of coastal areas and analyzing 
changes in coastal vegetation. This information will be invaluable for 
managing for disasters (such as tsunamis and hurricanes), regional and 
global climate changes, siting infrastructure development, 
understanding sediment budgets, and undertaking risk assessment and 
vulnerability assessments for coastal communities.
    NOAA's Coral Reef Program seeks to support research and mapping 
oriented toward the needs of coastal managers. The Conservancy strongly 
supports maintaining the coral program's base budget at $28 million. A 
portion of the increase recommended, $500,000 would allow the program 
to continue to map U.S. coral reefs--a task that, astonishingly, has 
not yet been completed. Funding requested for NOAA's Satellite Service 
also is important for improving our understanding and predictions of 
how corals will respond under stress. This information will help 
managers focus their efforts on areas where it will do the most good.
    Additionally, the Conservancy supports the work of NOAA's Global 
Change program, particularly the Sector Applications Research Program 
and Regional Integrated Science and Assessment. These programs support 
work to understand and project the impacts of climate variability and 
change on ecosystems at various spatial and temporal scales; develop 
local, national and international strategies for adapting to climate 
change related to the management of natural resources and the 
ecosystems and functions supported by these systems; and, to assess and 
apply existing, state-of-the-art climate science to improve the 
management and conservation of natural resources, both today and in the 
future.

                   SUPPORTING SITE-BASED CONSERVATION

    Marine and coastal ecosystems with the highest biodiversity value 
must be protected and restored. Marine ecosystems in our coastal zone 
face greater pressure from population growth and intensive land use 
than any other natural resource in the United States. These ecosystems 
provide significant benefits, protecting shorelines from erosion, 
serving as spawning and nursery grounds for commercial and recreational 
fisheries, cycling nutrients and removing pollutants. Yet, only small 
portions of the most productive ocean and coastal ecosystem have been 
protected in parks, preserves and sanctuaries.
    The Conservancy believes that government and the private sector 
should devote substantially more resources to the permanent 
preservation of ocean and coastal ecosystems with the greatest 
biodiversity value. Federal and State governments should be encouraged 
to use the best available science to identify sites where ecosystem 
protection and restoration will have the greatest potential to protect 
biodiversity--and should be provided the resources to take action.
    Specifically, the Conservancy would like to call to your attention 
two important programs. First, through NOAA's Coral Reef program and 
the U.S. Coral Reef Task Force, NOAA has undertaken a unique 
partnership with States and territories to develop locally based 
strategies to address threats to coral reefs at the local level. The 
administration has included the ``Local Action Strategies'' in the 
President's Ocean Action Plan and has requested funding for both NOAA 
($1.5 million) and the Department of Interior ($1.2 million) in the 
fiscal year 2006 budget request to implement these plans. The program 
requires a 1:1 match, which will likely be waived for projects in the 
territories. However, one of the purposes of this program is to raise 
the profile of these needs to attract other non-Federal resources. The 
Conservancy recommends that NOAA's portion of this funding be provided 
in addition to their base funding.
    The Nature Conservancy strongly supports the President's request 
for $90 million for the Pacific Salmon Recovery Fund which has gone to 
fund activities to protect and restore salmon habitat in western 
States. Generally, in most areas of the country, resources to undertake 
science and management to recover listed species are scarce. To address 
that need, the Conservancy requests $5 million for NMFS Protected 
Resources for Cooperation with the States to implement the Endangered 
Species Act. The $1 million provide each of the last 2 years has been 
extremely well received and additional funds would be similarly well-
spent.
    Finally, we would like to thank the committee for its support for 
the Community-based Restoration program. This program has an 
unparalleled record of getting funding to good projects on the ground, 
raising non-Federal contributions, and engaging communities in 
stewardship of their local resources.

                  PARTNERSHIPS, CAPACITY AND EDUCATION

    The U.S. Commission on Ocean Policy included numerous 
recommendations for improving the way government manages numerous 
competing uses and conservation of coastal and marine resources. They 
also recognized that a shift to the governance that they envisioned 
would require new partnerships, enhanced human capacity, and 
education--not only to inform the public, but also to train the next 
generation of resource managers. The Conservancy is committed to 
working in partnership with NOAA, States, local governments, and our 
fellow stakeholders to take conservation actions that provide the most 
impact for the limited dollars that are available. Funding the people 
and programs that make this work happen is no less important than the 
money that accomplishes a restoration project, creates a refuge, or 
mitigates a threat on the ground. Investing in that infrastructure is a 
critical component of effective coastal and ocean management. The 
Nature Conservancy has a Memorandum of Agreement with NOAA and we work 
closely with a number of their programs to identify shared priorities, 
so that scarce resources are used in the most efficient and 
complementary way possible. Programs that support partnerships include:
  --NOAA's Coral Reef Program.--$500,000 of the increase requested for 
        this program would support coral conservation in the Western 
        Pacific, including Palau and the Federated States of 
        Micronesia. Many of the management strategies being developed 
        in Palau will have direct benefit and application in U.S. 
        States in territories. For example, a coral reef protection 
        model developed in Palau is now being used in Florida Keys 
        National Marine Sanctuary.
  --Coastal Zone Management Act--Grants to States.--State CZM programs 
        are important to the management of coastal resources. The 
        Conservancy works closely with States to set joint priorities 
        for conservation and to protect and restore important coastal 
        areas.
    Thank you for this opportunity to inform the committee of the 
Conservancy's priorities in NOAA's fiscal year 2006 budget. I would be 
pleased to provide the committee with additional information on any of 
the Conservancy's activities described here or elsewhere.
                                 ______
                                 
  Prepared Statement of the American Society for Engineering Education

    On behalf of the American Society for Engineering Education 
Engineering Deans Council (EDC), I would like to express appreciation 
for the opportunity to present testimony for the record on fiscal year 
2006 appropriations for the National Science Foundation. I request that 
my testimony be made part of the record of the hearings on the fiscal 
year 2006 NSF budget. I want to begin by thanking the Chairman Richard 
Shelby and Ranking Minority Member Barbara Mikulski and all the other 
members of this subcommittee for their strong and continuing support 
for a robust budget for the National Science Foundation and for 
supporting the doubling of the NSF budget over 5 years. The NSF plays a 
vital role in supporting and advancing basic research in science and 
engineering and in developing the human capital needed to advance 
science and technology. Funding levels for the agency greatly impact 
engineering educators, as well as the Nation as a whole.
    The Engineering Deans Council thanks the Congress and the 
administration for recognizing the importance of the National Science 
Foundation by enacting the NSF Authorization Act of 2002, which 
provides for doubling the budget of the National Science Foundation 
over a 5 year period. This Act represents a major milestone for the NSF 
and for the scientific community, because it authorizes raising the 
budget of the NSF from its fiscal year 2002 level of approximately $4.8 
billion to the level of $9.8 billion in fiscal year 2007.
    For fiscal year 2006 the EDC advocates raising the NSF budget above 
the fiscal year 2005 request of $5.75 billion, to $6.1 billion. Even in 
tough budget years, this kind of investment is critical to developing 
the human and technical infrastructure that will continue to be the 
basis of economic growth and security for the country.
    The EDC encourages Congress to provide a strong appropriation for 
the NSF Math and Science Partnership program in fiscal year 2006, to 
improve teacher and student quality in science, technology, 
engineering, and mathematics education.
    The NSF occupies a unique position, with the ability to influence 
the economic strength of the Nation through research and innovation. 
Basic research funded through the NSF opens the doors for further 
discoveries that can advance medical care, improve communication 
equipment, and contribute to creating better civilian and military 
security systems. In the current climate of global economic competition 
and a heightened need to protect our citizens and infrastructure, 
strong support of the NSF serves a vital national interest.
    Science and technology have become a core component of economic 
strength and competitiveness. The NSF brings special expertise to the 
task of identifying and promoting the basic science and engineering 
research that underlies the United States' world economic leadership. 
Research sponsored by the NSF is vital to the Nation's investment 
across the scientific disciplines, and yields short term benefits and 
future advances for our national and homeland security, economic 
prosperity, quality of life, and educational growth. A growing chorus 
touts the importance of this kind of Federal engagement with science 
and technology, including Federal Reserve Chairman Alan Greenspan, the 
Council on Competitiveness, and Business Week, among many others. As 
the Council on Competitiveness stated in its December 2004 Innovate 
America report, ``America must champion and lead a new era of openness 
and competition--fueled by agility and constant motion, and enabled by 
lifelong learning, technological prowess and the infinite creativity of 
the innovation process itself.''
    NSF is the sole Federal agency charged with the important task of 
funding a broad range of research, spanning a wide variety of 
disciplines including basic science, engineering, mathematics, and 
computing. It provides necessary financial and intellectual support for 
scientists working on groundbreaking research, much of which will lead 
to innovations that could impact any number of emerging technologies. 
While NSF accounts for less than 4 percent of total Federal research 
and development spending, the agency supports almost half of the non-
medical basic research at American colleges and universities. In the 
field of engineering, NSF provides nearly one-third of all Federal 
support for basic research and has contributed to important 
developments such as computer-aided design, fiber optics, 
biotechnology, advanced composite materials, and magnetic resonance 
imaging (MRI). Renewing support for research and equipment will allow 
the Nation to take advantage of the opportunities presented by these 
new technologies, creating further economic opportunities and improving 
overall quality of life.
    NSF-sponsored research has led to many of the current developments 
in the area of homeland security. Recent NSF projects ranging from 
improving bomb detection to preventing an attack on our water supply 
help bolster our Nation's ability to prevent and respond to terrorist 
attacks.
    The benefits of a strong science investment are evident as the men 
and women of our armed forces respond to unprecedented threats to U.S. 
national security. Because of its superiority, much of it brought about 
by investments in S&T, this Nation's military is successfully waging 
war against terrorism. In this new environment, characterized by 
unforeseen and unpredictable threats, maintaining and enhancing 
technological superiority will become even more imperative.
    Across all fields, NSF support for research produces first-rate 
results on modest levels of investment. NSF-supported work is 
exceptionally well managed, and regularly attracts additional funding 
from outside sources. The agency has a diverse, responsive, results-
oriented staff, efficient business processes that take advantage of 
staff knowledge and technology resources, and state-of-the-art business 
tools and technology. NSF has exceptional business practices, as it 
demonstrated by earning three ``green lights'' on the scorecard that 
tracks the President's Management Agenda. Former OMB Director Mitchell 
Daniels said that the NSF deserves to be strengthened, noting, ``NSF is 
one of the true centers of excellence in the government where 95 
percent of the funds that taxpayers provide goes out on a competitive 
basis directly to researchers pursuing the frontiers of science at a 
very low overhead cost.'' NSF's management successes include doubling 
its budget between 1990 and 2000 while simultaneously decreasing the 
number of employees at the agency.
    Much of NSF's work looks beyond technological innovation by 
engaging new generations of students to aid in discoveries while 
gaining valuable skills that help prepare them for the cutting-edge 
research of the future. Many NSF grants require undergraduate students 
to be involved in performing federally funded research. The NSF's Math 
and Science Partnership Program extends improved science education into 
classrooms by uniting local school districts with the faculties of 
nearby colleges and universities.
    Engaging students in science from their pre-kindergarten education 
through college will help endow growing generations of Americans with 
the skills and interests necessary both to maintain U.S. leadership in 
economic, health, and military fields, as well as to function as 
citizens in an increasingly technology-driven society. A vibrant 
engineering education enterprise benefits civic, economic, and 
intellectual activity in the country. Engineering graduates learn to 
integrate scientific and engineering principles to develop products and 
processes that contribute to economic growth, advances in medical care, 
enhanced national security systems, and ecologically sound resource 
management. As a result, students who graduate with engineering degrees 
bring highly prized skills into a wide spectrum of sectors in the 
American workforce. Some conduct research that results in socially or 
economically valuable technological applications. Others produce and 
manage the technological innovations said to account for one-third to 
one-half of growth in the American economy. Still more bring advanced 
analytical abilities and knowledge of high technology to fields as 
diverse as health care, financial services, law, and government. Within 
all of these groups, the diversity of engineering graduates' 
backgrounds and viewpoints enables them to achieve the advances in 
innovation, productivity, and effectiveness that make them valuable 
contributors to the American workplace.
    In the Addendum immediately following my testimony, I have included 
additional documentation of the many ways NSF support is promoting 
engineering education and research at U.S. colleges and universities. 
This wealth of human capital owes much of its capacity to strategic NSF 
support for engineering education.
    A succession of predictable, sizable increases to the NSF budget 
will permit even greater development of human resources. In addition to 
the Math and Science Partnership initiative, NSF programs have become 
important vehicles for broadening the participation of under-
represented groups such as minorities and women in the fields of 
science, math, and engineering. Through programs like the Experimental 
Program to Stimulate Competitive Research (EPSCoR), NSF works to 
strengthen the research and development infrastructure of many rural 
and low-population States. Consistent growth in the NSF budget will 
permit the allocation and coordination of the activities needed to 
promote the broadest possible development of science, mathematics, and 
technology skills among all Americans.
    A $6.1 billion budget for NSF will enhance the value of the 
agency's other cross-cutting initiatives. New funding for 
multidisciplinary mathematics research will enhance the transfer of 
results and applications from mathematics and statistics research to 
science and engineering disciplines, expanding the cadre of researchers 
trained in both mathematics and science. Dynamic interdisciplinary work 
across engineering and science disciplines promises startling advances 
in, for example, medicine, manufacturing, and communications. The 
assurance of steady resources over extended periods of time for high-
risk, high-reward endeavors--such as research in nanotechnology, 
biocomplexity, and high-speed computing--would greatly enhance their 
prospects for success. As Harold Varmus, former Director of the 
National Institutes of Health and currently President of the Memorial 
Sloan-Kettering Cancer Center, has said, ``it is crucial that leaders 
of science agencies be able to anticipate several years of steady 
growth during periods of expansion. These agencies make multi-year 
awards and are responsible for training and research infrastructure, as 
well as the operational costs of doing research.'' In an increasingly 
interdependent research system, the NSF is uniquely situated to 
initiate and promote productive exchanges across the full range of 
scientific and engineering disciplines.
    Thank you for the opportunity to present this testimony to the 
subcommittee. The Engineering Deans Council would be pleased to respond 
to any questions from you and your staff.
    The Engineering Deans Council of the American Society for 
Engineering Education (ASEE) is the leadership organization of more 
than 300 deans of engineering in the United States. Founded in 1893, 
ASEE in a non-profit association dedicated to the improvement of 
engineering and engineering technology education.
   addendum.--examples of nsf-funded programs at engineering schools
    Quickly Identifying Deadly Viruses.--A portable pathogen detector 
is currently being developed by scientists at the Center for 
Biophotonics at the University of California-Davis to identify 
potentially deadly viruses and other biological agents in an unknown 
sample within 15 minutes. Originally developed at Lawrence Livermore 
National Laboratory with industry partners, the unit aims to help 
paramedics, emergency room specialists, police, and other first-
responders who may unknowingly be exposed to bioterrorism or other 
infectious agents.
    Developing Smaller, More Mobile, Power Sources.--Vanderbilt 
University robotics engineers are working to develop a power source for 
autonomous robots that stores significantly more energy per unit mass 
than batteries and weighs a fraction of the weight of a comparable 
battery/motor system. This power source can be used to run a ``lower 
extremity enhancer'' (also known as an ``exoskeleton'') to enable war 
fighters to easily carry 120 lbs over rough terrain for up to 24 hours. 
Vanderbilt researchers are developing the power system for this device, 
replacing batteries with rocket propellant in motors with pneumatic 
actuators. The Defense Advanced Research Projects Agency (DARPA) and 
the National Science Foundation (NSF) fund this research.
    Realistic Facial Recognition.--Driven by applications in human-
computer-interaction, security, entertainment and psychological 
research, facial analysis is a research topic in both the scientific 
community and industry. The Watson School of Engineering at Binghamton 
University is carrying out research on high definition face modeling 
representation. It is anticipated that this pilot research will lead to 
the development of a humanized system for recognizing human faces and 
their expressions (even emotions) as well as an automatic system for 
generating life-like facial expressions, which is crucial to the next 
generation of the human-computer interface.
    Removing Organic Waste from a Wide Variety of Water.--Researchers 
at the University of Arkansas are developing a device that uses a new 
technology to clean water more efficiently and effectively. Currently, 
the most common treatment of organic wastewater is biological--bacteria 
digest organic material through their respiration cycle. Efficient and 
effective biological wastewater treatment occurs under conditions that 
include oxygen. The micro-bubble oxygenation system they have developed 
operates at approximately one-tenth of the cost of more typical surface 
agitator aeration and one-fifth the cost of bubble aeration methods for 
cleaning water.
    Creating Earthquake-proof Structures.--As we all now know, 
earthquakes cause significant damage to structures and loss of lives. 
One way to prevent structural failures is to build them on strong, 
earthquake-resistant foundation systems. However, the current methods 
are inadequate to design such a foundation system. Researchers at Johns 
Hopkins University developed a new field-testing method to help design 
a pile foundation system for buildings and bridges that can withstand 
even the strongest earthquake and prevent the collapse of such 
structures. The research is funded by the National Science Foundation 
and the Federal Highway Administration.
    Securing the Nation's Power Grid.--The Nation's electric power grid 
was designed decades ago when computer networks were much less advanced 
and a single power company had complete control in each geographic 
region. As a result, the grid's communication infrastructure is 
inadequate, increasing the grid's vulnerability to massive accidental 
failures (such as in August 2003 on the East Coast, and in 1996 on the 
West Coast) and to cyber-attacks. Washington State University 
researchers are developing a new software system, called GridStat, 
which is more versatile than the grid's existing communication 
infrastructure and is able to handle the scaling-up of data that is 
imperative for the reliability and security of a deregulated power 
grid. GridStat has received funding from the Critical Infrastructure 
Protection program of the National Institute of Standards and 
Technology (NIST) and from the National Science Foundation (NSF).
                                 ______
                                 
  Prepared Statement of the Association of Small Business Development 
                            Centers (ASBDC)

    The Association of Small Business Development Centers (ASBDC) urges 
the Subcommittee on Commerce, Justice, Science and Related Agencies to 
provide an appropriation of $109 million for the Small Business 
Administration's Small Business Development Center (SBDC) grant program 
in the fiscal year 2006 appropriations bill.
    An appropriation of $109 million is the level of funding required 
to restore Federal resources lost to all State and regional SBDC 
networks in recent years. It is the funding level recommended by the 
Chair and Ranking Member of the Senate Small Business Committee in 
their Budget Views and Estimates letters; the funding level provided 
for in the Snowe-Kerry amendment to the Senate Budget Resolution; and 
the funding level recommended by every member of the Small Business 
Committee in their letter of April 22 to Chairman Shelby and Ranking 
Member Mikulski.
    Federal funding for the nationwide SBDC network today is lower than 
it was in fiscal year 2001, even without accounting for inflation or 
population growth. If one accounts for the effects of inflation, the 
loss of Federal SBDC resources is clear and dramatic. If the national 
SBDC network is funded at $88 million in fiscal year 2006, as proposed 
by the SBA, State SBDC networks will receive significantly less Federal 
funding (in inflation-adjusted dollars) than they received in fiscal 
year 2001. For example: Alabama will receive $192,010 less; Alaska will 
receive $61,827 less; Hawaii will receive $61,827 less; Iowa will 
receive $197,561 less; Kansas will receive $169,564 less; Kentucky will 
receive $176,740 less; Maryland will receive $214,554 less; Mississippi 
will receive $157,298 less; Missouri will receive $250,778 less; New 
Hampshire will receive $61,827 less; New Mexico will receive $109,916 
less; North Dakota will receive $61,827 less; Texas will receive 
$197,532 less; Vermont will receive $61,827 less; Washington will 
receive $79,029 less; West Virginia will receive $200,769 less; and 
Wisconsin will receive $233,910 less.
    For small-population States, such as Alaska, Hawaii, New Hampshire, 
North Dakota and Vermont, which receive the statutory minimum funding 
for their SBDCs, the decline in Federal funding has been even more 
severe. Small-population States have not had an increase in Federal 
SBDC funding since 1998. These States will receive $103,210 (17 
percent) less Federal funding for their SBDC networks in fiscal year 
2006 (in inflation-adjusted dollars) than they received in fiscal year 
1998, if the national SBDC network is funded at $88 million as proposed 
by the SBA.
    The 24 States (including Alabama, Iowa, Kansas, Kentucky, Maryland, 
Mississippi, Missouri, New Mexico, West Virginia and Wisconsin) that 
suffered Federal SBDC grant reductions after the 2000 Census, have been 
particularly hard-hit by declining Federal funding for the nationwide 
SBDC network. Although the populations of these States grew during the 
1990's, their populations did not grow as fast as the national average, 
and their share of Federal SBDC funding was reduced even further after 
the 2000 Census.
    I realize the tight budget constraints facing the Congress this 
year, and the SBDC network appreciates the small increase in Federal 
funding proposed in the President's budget (from $87.8 million in 
fiscal year 2005 to $88 million in fiscal year 2006). However, as 
custodians of the SBDC program, we feel it is our responsibility to let 
Congress know about the impact of declining Federal resources on SBDC 
services to the small business community, and to urge Congress to alter 
that trend if possible.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a result of declining Federal resources, SBDC services to small 
businesses owners and aspiring entrepreneurs have been curtailed, and 
the economic impact of SBDC assistance has been diminished. Last year, 
for example, due to the laying off of SBDC counselors and the closing 
of centers, the number of hours of business counseling provided by the 
nationwide SBDC network declined by 93,826 compared to the year 
before--despite growing demand for SBDC services.
    I urge you to consider that Federal funding for the SBDC program is 
an investment, not a loss for the Federal Treasury. Federal SBDC 
funding actually generates more revenues than it costs the taxpayer. In 
2003, the Federal SBDC appropriation of $88 million helped SBDC in-
depth clients generate an estimated $211.6 million in Federal revenue--
a return of $2.40 in new tax revenues for every Federal dollar spent on 
the SBDC program. And every dollar appropriated by the Federal 
Government for the SBDC national program--to assist small businesses to 
survive, grow and create jobs--leverages at least one additional, non-
Federal dollar in small business assistance. That is so because, to 
secure a Federal dollar, SBDCs must raise a non-Federal matching 
dollar.
    The SBDC network has a proven record of creating jobs and 
generating growth for America's small businesses.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  --In the sluggish economy of 2003, as larger businesses downsized, 
        SBDC in-depth counseling for small businesses generated 56,258 
        new full time jobs and helped save an additional 59,489 jobs.
  --SBDC counseling clients create more jobs than average businesses. 
        Businesses that received in-depth SBDC counseling experienced 
        25 times the job growth of average businesses (10.2 percent 
        compared to 0.4 percent for U.S. businesses in general) in 
        2003.
  --SBDCs help small businesses increase sales. SBDC in-depth 
        counseling helped small businesses generate $5.9 billion in new 
        sales and save an additional $7 billion in sales in 2003.
  --SBDC clients' sales grow faster than other businesses' sales. 
        Established businesses that received in-depth SBDC counseling 
        experienced sales growth of 17 percent in 2003--compared to 2 
        percent for businesses in general.
  --SBDC clients create new businesses. More than 50 percent of all 
        pre-venture SBDC in-depth counseling clients start new 
        businesses. Between 2002 and 2003, SBDC in-depth counseling 
        clients started 15,157 new businesses.
  --SBDC clients make investments in our economy. SBDCs helped in-depth 
        clients obtain an estimated $2 billion in financing in 2003. 
        Every dollar spent on the SBDC network helped small businesses 
        to access $10.32 in new capital.
    With an appropriation of $109 million, the nationwide SBDC network 
would be able to help small businesses create an estimated 78,000 new 
jobs and $270 million in new Federal revenues.
    Nationwide, SBDCs provided management and technical assistance to 
more than 1.3 million small business owners and aspiring entrepreneurs 
last year. In 2004, SBDC services included face-to-face counseling of 
an hour or more for 279,905 clients; 1.5 million total hours of 
counseling; 27,193 group training sessions; and more than 2.1 million 
total hours of training for small businesses and aspiring 
entrepreneurs. In 2004, 39 percent of SBDC counseling clients 
nationwide were women, 27 percent were minorities and 9 percent were 
veterans. Forty-four percent of SBDC training clients were women, 24 
percent were minorities and 7 percent were veterans.
    America's SBDC network is a unique partnership that includes 
Congress, the SBA and the private sector, as well as the colleges, 
universities and State governments that receive SBDC grants and manage 
the SBDC network. Outstanding institutions of higher education such as 
the University of Alabama at Birmingham, the University of Alaska at 
Anchorage, the University of Hawaii at Hilo, Iowa State University, 
Fort Hays State University, the University of Kentucky, the University 
of Maryland, the University of Mississippi, the University of Missouri 
Extension, the University of New Hampshire, Santa Fe Community College, 
the University of North Dakota, Texas Tech University, the University 
of Houston, the University of Texas at San Antonio, the Dallas County 
Community College District, the Vermont State Colleges, Washington 
State University, and the University of Wisconsin Extension, to name a 
few, are hosts of the SBDC program. SBDC hosts also include State 
government agencies, such as the West Virginia Development Office. 
These agencies, like the institutions of higher learning that host SBDC 
programs, bring to the SBDCs resources, relationships and unparalleled 
leadership in their respective States.
    I appreciate the subcommittee's consideration of the ASBDC's views. 
The Federal investment in America's SBDC Network is a proven, cost-
effective way to grow the small business community, create jobs and 
develop the economy of the future. As such, the ASBDC urges the 
subcommittee to provide an increase in funding for the SBDC program in 
the fiscal year 2006 Commerce, Justice, Science and Related Agencies 
appropriations bill, sufficient to restore Federal resources lost to 
all State and regional SBDC networks in recent years as a result of 
declining Federal funding, inflation and Census-related grant 
reductions.
    The ASBDC also urges the subcommittee to reject non-SBDC related 
earmarks in the appropriation for SBDC grants. The SBDC appropriation 
has for several years included earmarks for SBDC related programs (for 
example, the SBDC defense transition program), and the ASBDC does not 
oppose this funding. However, in fiscal year 2004 and fiscal year 2005, 
the appropriations bills included earmarks for a program (the South 
Carolina Women's Business Center) that is unrelated to the SBDC 
program. The ASBDC opposes such non-SBDC related earmarks to the SBDC 
appropriation and urges the subcommittee to reject such earmarks.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment

                                SUMMARY

    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $6.29 billion for the National Science 
Foundation (NSF) in fiscal year 2006, an increase of 15 percent over 
fiscal year 2005. NCSE supports a 15 percent increase for NSF in order 
to put the agency on the doubling track that Congress and the 
administration deemed necessary when they enacted the National Science 
Foundation Authorization Act of 2002 (Public Law 107-368). Under the 
fiscal year 2006 budget request, funding for NSF would decline by 
approximately 0.5 percent in constant dollars, after accounting for a 
proposed transfer of existing funding from another agency.
    The United States leads the world in scientific discovery and 
innovation, but other nations are on a fast track to pass the United 
States. The long-term prosperity of the Nation, our quality of life, as 
well as our national and homeland security require a strong and steady 
commitment of Federal resources to science and technology. 
Environmental R&D is a critical component of the overall Federal 
investment in research and development. Federal investments in 
environmental R&D must keep pace with the growing need to improve the 
scientific basis for environmental decisionmaking.
    As a result of the recent reorganization of the Senate 
Appropriations Committee, the Subcommittee on Commerce, Justice, and 
Science now has broader jurisdiction over environmental research and 
education. NCSE commends the subcommittee for its past bipartisan 
leadership in support of science to improve environmental 
decisionmaking. The subcommittee has an historic opportunity to address 
pressing national challenges by appropriating strong and growing 
funding for environmental research and education at NSF, NOAA, and 
other science agencies under the subcommittee's expanded jurisdiction.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.

                      NATIONAL SCIENCE FOUNDATION

    Implementing the NSF Doubling Act.--The National Council for 
Science and the Environment urges Congress to appropriate the funds 
necessary to implement the National Science Foundation Authorization 
Act of 2002, which was passed by Congress on November 15, 2002 and 
signed into law by the President on December 19, 2002 (Public Law 107-
368). A central goal of the Act is to double the budget of the National 
Science Foundation in 5 years. It authorizes a budget increase of 105 
percent for NSF, from $4.8 billion in fiscal year 2002 to $9.8 billion 
in fiscal year 2007. The NSF Authorization Act of 2002 is a major 
milestone for the NSF, the scientific community, and the Nation. It 
recognizes the critical connection between science and the long-term 
economic strength of the Nation. In order to achieve the outcomes 
envisioned by this bold legislation, Congress must appropriate the 
funding levels specified in the NSF Authorization Act.
    The National Council for Science and the Environment urges Congress 
to appropriate $6.29 billion for the National Science Foundation in 
fiscal year 2006, which would increase its budget by 15 percent over 
fiscal year 2005. NCSE supports a 15 percent increase for NSF in order 
to place the agency on the doubling track that Congress deemed 
necessary. Although the authorized funding level is $8.52 billion for 
fiscal year 2006, we understand that this may be beyond reach in the 
current fiscal environment.
    The President's budget request would increase funding for NSF by 
2.4 percent to $5.60 billion in fiscal year 2006. Of the $132 million 
in new funding, $48 million represents a transfer in existing funds 
from the U.S. Coast Guard for operation and maintenance of three polar 
icebreakers. After accounting for this transfer and adjusting for the 
effects of inflation, the NSF budget would decline by approximately 0.5 
percent.
    Expanding NSF's Environmental Research and Education Portfolio.--
The National Science Foundation plays a crucial role in supporting 
environmental R&D. Environmental research often requires knowledge and 
discoveries that reach across disciplinary and institutional 
boundaries. NSF recognizes this and encourages multidisciplinary 
environmental activities across the entire agency, as well as with 
other Federal agencies. NSF has established a ``virtual directorate'' 
for Environmental Research and Education (ERE). Through this virtual 
directorate, NSF coordinates the environmental research and education 
activities supported by all the directorates and programs.
    Although the National Science Board said environmental research and 
education should be one of NSF's ``highest priorities'' (see below), 
the growth of the ERE budget has lagged behind the growth of the 
overall NSF budget in recent years (Table 1). Given that the National 
Science Board has identified environmental research and education as 
one of the agency's highest priorities, funding for the ERE portfolio 
should grow at least as rapidly as the total NSF budget. In order to 
achieve the $1.6 billion funding level recommended by the National 
Science Board, NCSE supports rapid growth in NSF's Environmental 
Research and Education portfolio over the next several years.
    Biocomplexity in the Environment.--NCSE is especially supportive of 
NSF's priority area on Biocomplexity in the Environment, which is the 
flagship of the ERE portfolio. This priority area provides a focal 
point for investigators from different disciplines to work together to 
understand complex environmental systems, including the roles of humans 
in shaping these systems. The Biocomplexity in the Environment priority 
area includes research in microbial genome sequencing and ecology of 
infectious diseases, which improves our understanding of disease 
transmission and potential agents of bioterrorism.
    The Biocomplexity in the Environment priority area was reviewed by 
a Committee of Visitors in 2004. The Committee reported:

    ``This program is highly responsive to a great need for integrative 
research to answer non-linear complex questions. The outcomes are 
helpful to establishing sound science evidence for use in policy 
decisions, in making science relevant to the community, in including 
the human dimension in consideration of environmental change, and in 
integrating these areas of science knowledge and discovery with the 
need for environmental literacy among our students in formal education 
and the education of the general public.'''

    After several years of rapid growth, the fiscal year 2006 budget 
request would cut funding for Biocomplexity in the Environment by 15.5 
percent from $99.2 million in fiscal year 2005 to $83.8 million in 
fiscal year 2006. NCSE urges Congress to support increased funding for 
this critical priority area and its integration into NSF's permanent 
Environmental Research and Education portfolio.

                                    TABLE 1.--NATIONAL SCIENCE FOUNDATION: ENVIRONMENTAL RESEARCH AND EDUCATION (ERE)
                                                         [Budget authority dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Environmental R&D                                        Change 2004 to 2005
                                      ------------------------------------------------------------------------------------------------------------------
                                                                                                                     Fiscal Year
                                       Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year      2005        Amount     Percent
                                       1999 Actual  2000 Actual  2001 Actual  2002 Actual  2003 Actual   2004 Plan     Request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Research and Related Activities
 (R&RA):
    Biological Sciences..............       $117.9       $125.3       $167.0       $174.5       $188.3       $214.1       $214.1  ...........  .........
    Comp. & Info. Sci. & Eng.........          4.0          7.0         15.1         15.1         22.1         23.9         23.9  ...........  .........
    Engineering......................         38.0         50.0         62.7         63.7         76.0         76.0         74.0        -$2.0       -2.6
    Geosciences......................        320.9        327.9        409.4        442.8        499.1        513.1        513.1  ...........  .........
    Math. and Physical Sci...........         44.3         48.3         56.4         56.4         46.5         32.2         32.2  ...........  .........
    Soc., Behav. & Econ. Sci.........         17.8         17.3         20.1         21.7         21.5         22.4         22.4  ...........  .........
    Office of Polar Programs.........         45.3         45.3         47.5         49.8         50.9         50.9         50.9  ...........  .........
    Integrative Activities \1\.......          7.0         50.0  ...........  ...........  ...........  ...........  ...........  ...........  .........
                                      ------------------------------------------------------------------------------------------------------------------
      Subtotal, R&RA.................        595.2        671.2        778.1        824.0        904.4        932.6        930.7         -1.9       -0.2
Edu. and Human Res. \2\..............  ...........  ...........  ...........  ...........          2.0          2.0          2.0  ...........  .........
                                      ------------------------------------------------------------------------------------------------------------------
      TOTAL ERE Budget...............        595.2        671.2        778.1        824.0        906.4        934.6        932.7         -1.9       -0.2
                                      ==================================================================================================================
      TOTAL NSF Budget...............      3,690.3      3,923.4      4,459.9      4,774.1      5,369.3      5,577.8      5,745.0        167.2        3.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In Fiscal Year 1999 and Fiscal Year 2000, funding for the Biocomplexity and the Environment (BE) Priority Area was included in the Integrative
  Activities account. Beginning in Fiscal Year 2001, BE funds were distributed across the directorates.
\2\ Figures for environmental funding in the Education and Human Resources account are not available prior to Fiscal Year 2003. Although education is
  not generally scored as R&D, $2.0 million for Environmental Education was included in the Education and Human Resources Directorate in the ERE budget
  from Fiscal Year 2003 to 2005 (request).

Source: NSF. ERE funding levels for Fiscal Year 2005 Actual and Fiscal Year 2006 Request are unavailable as of May 2, 2005.

 national science board report on environmental science and engineering
    The National Council for Science and the Environment encourages 
Congress to support full and effective implementation of the 2000 
National Science Board (NSB) report, Environmental Science and 
Engineering for the 21st Century: The Role of the National Science 
Foundation, within the context of a doubling of the budget for NSF.
    The National Science Board report sets out an ambitious set of 
recommendations that could dramatically improve the scientific basis 
for environmental decisionmaking. The first keystone recommendation is 
as follows:

    ``Environmental research, education, and scientific assessment 
should be one of NSF's highest priorities. The current environmental 
portfolio represents an expenditure of approximately $600 million per 
year. In view of the overwhelming importance of, and exciting 
opportunities for, progress in the environmental arena, and because 
existing resources are fully and appropriately utilized, new funding 
will be required. We recommend that support for environmental research, 
education, and scientific assessment at NSF be increased by an 
additional $1 billion, phased in over the next 5 years, to reach an 
annual expenditure of approximately $1.6 billion.''

    The report says that the National Science Board expects NSF to 
develop budget requests that are consistent with this recommendation. 
At first, growth in the Environmental Research and Education budget 
reflected its priority status: from fiscal year 1999 to 2001, the ERE 
account grew more rapidly than the overall NSF budget. However, the ERE 
growth rate has trailed the total NSF growth rate since that time 
(Table 1). From fiscal year 2002 to fiscal year 2005 (request), the ERE 
budget grew by only 13.1 percent while the total NSF budget grew by 
20.3 percent. The lagging growth of the Environmental Research and 
Education budget relative to the total NSF budget in recent years 
raises serious concerns about its status as one of NSF's ``highest 
priorities.''
    The National Science Board envisioned a 167 percent increase in 
funding for the ERE portfolio, from approximately $600 million to $1.6 
billion, within the context of a doubling of the total NSF budget over 
5 years. The doubling has not materialized. Nevertheless, if the 
Environmental Research and Education portfolio is one of NSF's highest 
priorities, then the growth rate of the ERE budget should not lag 
behind the growth rate of the total NSF budget.
    The National Science Foundation has taken many steps to implement 
the recommendations of the NSB. Full implementation of the NSB report 
will require strong support from Congress and a significant increase in 
funding for NSF's portfolio of environmental science, engineering and 
education.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman for the opportunity to present this 
testimony on behalf of the American Society of Plant Biologists (ASPB). 
My name is Roger Hangarter and I am President of ASPB and professor of 
biology at Indiana University. ASPB joins with other members of the 
Coalition for National Science Funding in recommending at least $6 
billion in fiscal year 2006 appropriations for the National Science 
Foundation.
    This level of funding will enable NSF to continue to play its key 
role in establishing a leadership position for the United States in 
science and technology. U.S. leadership in a wide range of science 
disciplines is needed to compete and survive in the increasingly 
challenging global market.
    Support for NSF contributes to new job-creating discoveries while 
at the same time, training the highly skilled work force essential for 
business and industry in the Nation. Despite the attractions of lower 
wages and benefits costs to companies considering moving jobs offshore, 
it is the highly skilled workforce in the United States that plays a 
major role in contributing to job starts and business expansions here 
at home. The business magazine, Forbes, looked at the best places of 
the 150 largest cites/regions to start a business in the United States 
in its May 24, 2004 issue. The business magazine turned to an economic 
and financial research firm, Economy.com, to conduct the analysis. One 
of the major criteria mentioned in the survey assessing the best places 
for businesses was an educated workforce. ``To assess the 
qualifications of the work force, we took into account the 
concentration of college graduates and Ph.D.s in an area,'' Forbes 
said. NSF, with its grant support of university-based research and 
education plays a key role in the training of future and current 
college graduates and Ph.D.s in the United States.
    Other criteria in the business survey index included weighing of 
business expenses, job and income growth, migration patterns, crime 
rates. Culture and leisure were also taken into account.
    At the top of its list was Madison, Wisconsin, largely because of 
research and education at the University of Wisconsin and its educated 
workforce. In Madison, 41 percent of the population has a college 
degree--almost twice the national average. That helps create a tight 
labor market where unemployment is the lowest of any of the 150 largest 
metro areas, the article noted.
    ``Brains power the Madison economy: The university, which employs 
17,000 souls but has helped create 70,000 jobs in Madison, generates 
$4.7 billion a year in direct and indirect output, reports NorthStar 
Economics,'' Forbes noted. ``Outsourcing may be all the rage these 
days, but many companies are still looking homeward--with good reason: 
low business costs and an educated workforce.'' Contributions of NSF 
and other federally supported research to universities and local 
economies are also found in many cities across the Nation in addition 
to Madison.
    Huntsville, Alabama captured a top ten position in the business-
appeal rankings. The Forbes article reported, ``What Huntsville lacks 
in size, it makes up for in brains: 31 percent of the population has a 
college degree (U.S. average: 24 percent).'' Huntsville also benefits 
from government investment by the Department of Defense, NASA and large 
private employers, who make use of its educated workforce.
    Lexington, Kentucky, among the top ten cities in the survey to 
start a business or career, benefits from large employers University of 
Kentucky, Toyota Motor, Lexmark International and other employers. In 
addition to educated workers, low business costs also contribute to 
Lexington's appeal to employers, according to Forbes.
    Baltimore, Maryland with its base of major university and other 
employers was in the top half of the Forbes listing of best cities to 
start a business or career. Kansas City, Missouri was in the top half 
of the survey listing, aided by contributions of NSF-supported 
institutions in the State to its educated workforce.
    An educated work force including graduates of universities in New 
Mexico contribute to Albuquerque being ranked high at 12 in the 
business appeal index.
    Austin, Texas, with the University of Texas, was selected as one of 
the three most appealing cities for new business by Forbes and its 
research firm that compiled the business index. Also highly ranked in 
Texas for appealing to business are Houston, Fort Worth, Dallas and San 
Antonio.
    States that did not have one of the 150 largest cities were not 
included in the business index rankings. However, NSF-sponsored 
research and education at universities of less populated States and in 
smaller cities make significant contributions to training of an 
educated workforce and related local business development.
    New technologies resulting from basic research findings supported 
by NSF help create new industries and many new jobs. Often new 
companies spring up as a result of NSF-sponsored research.
    Strong contributions by universities conducting NSF-supported 
research to local economies also lead to a stronger national economy. 
With the higher labor, housing, transportation, commercial and 
industrial property and related costs found in the United States 
compared to a number of world nation competitors, Federal investment in 
science and education through support of NSF helps keep the Nation's 
businesses afloat in a global sea of keen competition.
    NSF support for basic plant research contributes to the local 
economies nationwide, including rural areas, while helping to secure 
the food supply of all Americans. As the first step of every food 
chain, plants and research on plants plays an essential role in meeting 
the nutritional needs of people here and abroad. The NSF Directorate 
for Biological Sciences sponsors examination of basic research 
questions on plants and other organisms. A number of plant research 
discoveries were cited by NSF among its most significant advances in 
science over the first 50 years of the agency's existence.
    NSF supports world leading plant genomic research as part of the 
Plant Genome Research Program. The National Plant Genome Initiative 
Progress Report was published January 2005 by the National Science and 
Technology Council Committee on Science Interagency Working Group on 
Plant Genomes. The report noted, ``Plant genome research holds enormous 
promise for solving global problems in agriculture, health, energy and 
environmental protection. Much still remains to realize this potential 
and the U.S. scientific community is clearly working toward that 
goal.''
    The report cited the importance of research on economically 
important crops and on the model plant, Arabidopsis thaliana--a plant 
with a small and simple genome. Knowledge gained from the Arabidopsis 
genome facilitates understanding of other economically important plants 
through use of comparative genomics.
    Advances in plant genome and other basic plant research combined 
with modern biotechnology will lead to superior food and energy crops, 
more nutritious foods, more environmentally benign plant production 
practices and new plant-produced lifesaving medicines. These advances 
will significantly benefit America's farmers and consumers.
    U.S. leadership in science and technology plays an important role 
in the Nation's war on terrorism at home and abroad. Security related 
enhancements in airports, passenger plane cockpits, landmine sensing 
plants, modern armored vehicles, night-vision equipment and other 
critical areas represent applications of technology that can be traced 
back to basic science.
    ASPB, founded in 1924, represents nearly 6,000 plant scientists. 
The largest segment of ASPB members conducts research at universities 
in each of the 50 States. ASPB membership also includes scientists at 
government and commercial laboratories. We appreciate the strong 
efforts of the committee in support of NSF. Please let us know if we 
can provide any further information.
                                 ______
                                 
              Prepared Statement of The Ocean Conservancy

    The Ocean Conservancy on behalf of the American Society for the 
Prevention of Cruelty to Animals, Cetacean Society International, 
Defenders of Wildlife, Humane Society of the United States, 
International Fund for Animal Welfare, International Wildlife 
Coalition, National Environmental Trust, Natural Resources Defense 
Council, The Marine Mammal Center, The Whale and Dolphin Conservation 
Society is pleased to share our views regarding the marine conservation 
programs in the budgets of the National Oceanic and Atmospheric 
Administration (NOAA), the Department of State's Bureau of Oceans and 
International Environmental and Scientific Affairs and the Marine 
Mammal Commission and requests that this statement be included in the 
official record for the fiscal year 2006 Science, State, Justice, 
Commerce, and Related Agencies bill.
    We cannot overstate the importance of this subcommittee in 
advancing marine conservation and appreciate the funding provided in 
fiscal year 2005. We are deeply troubled by the severe cuts for the 
National Marine Fisheries Service proposed in the administration's 
fiscal year 2006 budget request. If enacted, these cuts will cripple 
the agency's ability to properly manage our oceans and conserve 
protected and highly vulnerable marine species such as sea turtles and 
marine mammals. We recognize the constraints this subcommittee faces, 
but with the recognized threats that these species face, as highlighted 
in the U.S. Commission on Ocean Policy's Report, we urge you to make 
ocean conservation a top priority by restoring reduced appropriations 
to fiscal year 2005 levels.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

National Marine Fisheries Service
            Marine Mammal Protection
    A lack of adequate resources has severely hampered NMFS's ability 
to effectively implement the Marine Mammal Protection Act (MMPA). We 
are deeply disappointed that the President's budget cut funding for 
this line item in fiscal year 2006 from $81.504 million to $38.023 
million and strongly urge the subcommittee to restore funding for this 
program to the fiscal year 2005 levels. This will allow the National 
Marine Fisheries Services (NMFS) to fund top priority studies 
identified by the take reduction teams; design and implement take 
reduction plans; conduct research on population trends; undertake 
research and status reviews on threatened and endangered whales; 
further investigate the stock structure and abundance of Atlantic 
bottlenose dolphins; conduct critical research on health and respond to 
marine mammal die-offs; undertake research and implement effective 
mitigation measures related to acoustic impacts on marine mammals; and 
carry out monitoring, education, and enforcement programs.

            Protected Species Research and Management-Protected 
                    Resources Stock Assessment Improvement Plans
    The MMPA and ESA require NMFS to regularly evaluate the status of 
more than 200 stocks of marine mammals and other listed species. 
Accurate and precise biological information is necessary to carry out 
effective conservation programs, promote recovery, evaluate listing 
status, and authorize scientifically defensible take reduction plans 
and incidental take permits. Unfortunately, over 200 marine mammal 
stocks and all U.S. sea turtle populations lack the necessary data 
required under MMPA and the ESA. In order to address this problem, we 
urge the subcommittee to consider providing $15 million in fiscal year 
2006, an increase of $13 million from the President's request.

            Endangered Species
    NMFS bears significant responsibility for administering the 
Endangered Species Act with respect to listed marine and anadromous 
species such as North Atlantic right whales, Steller sea lions, and all 
species of sea turtles found in U.S. waters. With only approximately 
300 North Atlantic right whales still alive, funding is needed to 
improve our understanding of right whales, to develop fishing 
technologies to reduce entanglements, and to undertake studies and 
measures to reduce ship strikes. The President's request of $5.8 
million is woefully inadequate for endangered species as a whole and is 
significantly less than what was provided in fiscal year 2005 for Right 
Whale Conservation. We thank the subcommittee for its past support and 
request continued funding of $15 million in fiscal year 2006 for North 
Atlantic Right Whale conservation efforts. In addition, we request that 
the subcommittee provide $10 million for implementation of the ESA.

            Sea Turtles
    The apparent decline of the southern Florida loggerhead turtle 
nesting population and continuing Pacific sea turtle declines 
underscore the need to restore Marine Turtle funding to fiscal year 
2005 levels. The President's request of $9.7 million for marine turtles 
is insufficient. We respectfully request that the subcommittee restore 
funding to fiscal year 2005 levels and provide $14.93 million for sea 
turtle conservation efforts in fiscal year 2006. In particular, we 
support restoration of $1.858 million for Sea Turtle Supplemental 
Funding and $.955 million for the National Fish and Wildlife Foundation 
Species Management program, both of which have been completely 
eliminated in fiscal year 2006. These programs leverage valuable funds 
for sea turtle conservation and foster important private and government 
partnerships.

            Enforcement and Observers/Training
    In addition to better data collection, enforcement of our marine 
mammal and sea turtle protection regulations is critical. 
Unfortunately, lack of funding has hampered NMFS's ability to keep pace 
with the need. We urge $75 million in fiscal year 2006, $20.8 million 
above the administration's request, to address this shortfall so that 
more officers can be hired to better enforce our marine conservation 
laws. Along with stock assessments, reliable, objective information 
must be collected about how many marine mammals and sea turtles are 
being caught, as bycatch is crucial to the conservation of these 
vulnerable species. Observers are a key means of collecting such 
information, yet the coverage for many of the fisheries is less than 5 
percent--completely inadequate to obtain any statistically reliable 
information. We recommend the subcommittee provide an additional $32.5 
million for observers in fiscal year 2006 over the administration 
request of $25.992 million.
    Northeast Observers.--We urge the Appropriations Subcommittee to 
authorize $20 million to support and expand the efforts of the 
Northeast Fisheries Observer Program in fiscal year 2006. These funds 
are critically needed to increase existing levels of observer coverage 
in several Northeast fisheries, to expand the observer-training 
program, and to improve the data management system currently in place. 
This increase of $15.5 million over the administration's request is 
needed to: (1) provide sufficient levels of observer coverage to 
evaluate selective fishing practices, especially through Special Access 
Programs, B-day programs, and real-world testing of innovative gear 
technologies; (2) quantify actual bycatch rates in various regional 
fisheries; (3) assure that total catch (both landings and discards) are 
accurately quantified; (4) develop standardized reporting methodology 
to help assure that fishery managers receive the data collected by at-
sea observers in a timely manner.
    Atlantic Coast Observers.--We believe that a minimum of 20 percent 
observer coverage should be required throughout the Atlantic, with 100 
percent coverage for any further gear research. Monitoring programs in 
the Atlantic longline fleet exemplify low levels of observer coverage. 
Since 2001, Atlantic longline observer coverage has not met even the 5 
percent level required by NMFS in order to comply with the ESA. As a 
result, NMFS estimates that several hundred endangered sea turtles were 
captured in excess of authorized levels before the agency took action 
to require further protections. As NMFS implements various marine 
mammal take reduction plans and its Comprehensive Strategy for Sea 
Turtle Conservation in the Atlantic, observer coverage in a variety of 
fisheries will be a key element. We respectfully request that the 
subcommittee fund Atlantic Coast Observers at $13.348 million in fiscal 
year 2006, $10 million above the administration request.
    Hawaii Longline Observers.--We strongly support $3.979 million in 
funding for Hawaii pelagic longline fisheries observers. High 
interaction rates with endangered sea turtles have resulted in partial 
closures in the fishery in recent years to avoid jeopardizing the 
continued existence of these species. In 2004, fishermen returned to 
the closed areas with gear and bait modifications expected to reduce 
the number and severity of sea turtle interactions. Rates of capture, 
however, have been higher than previously estimated, demonstrating the 
need for continued high levels of observer coverage to determine the 
effectiveness of these modifications in each fishery. We respectfully 
request that the subcommittee fund Hawaii Longline Observers at $8.979 
million in fiscal year 2006, $5 million above the administration 
request.
    West Coast Observers.--We respectfully requests that the 
subcommittee fund West coast observers at $7 million in fiscal year 
2006, $2 million above the administration request.

            National Environmental Policy Act (NEPA) Implementation

    We support the administration's $8.0 million request for 
implementing NEPA. This funding is critical, as NMFS is required by law 
to consider and document potential environmental impacts of agency 
actions, ranging from complex rulemakings to controversial research 
permits. Of these funds, we urge the committee to dedicate $2 million 
to ensure robust NEPA analyses for marine mammal permitting.

                          DEPARTMENT OF STATE

Bureau of Oceans and International Environmental and Scientific Affairs
            International Fisheries Commission Account
    We request $300,000 for the State Department to support the Inter-
American Convention for the Protection and Conservation of Sea Turtles 
and the Memorandum of Understanding on the Conservation and Management 
of Marine Turtles and their Habitats of the Indian Ocean and South East 
Asia. Continued U.S. leadership and support will ensure that the 
initial excellent work of these conventions continues. In the aftermath 
of the Asian tsunami, the Indian Ocean agreement has become 
increasingly important for organizing and generating restoration and 
conservation initiatives in the region.

                        MARINE MAMMAL COMMISSION

    We request that the subcommittee support the Marine Mammal 
Commission's base program at $4.25 million in fiscal year 2006. The 
Marine Mammal Commission plays a vital oversight role to Federal 
agencies charged with implementing the Marine Mammal Protection Act. 
The Commission continues to use wisely the funds that have been 
appropriated, funding innovative research and providing seed money for 
non-governmental researchers, convening workshops on killer whale 
predation on marine mammals, commissioning population viability 
analyses of threatened and endangered marine mammals, hosting a 
workshop and preparing a report identifying research needs in marine 
mammal conservation and science, and convening a stakeholder process to 
evaluate the research and mitigation strategies related to the impacts 
of sound on marine mammals. The Commission's scientific credibility, 
research, and advice are critical components to our Nation's ability to 
conserve marine mammals and evaluate emerging threats to these animals.
    These programs and issues are of the utmost importance to the 
stewardship of the Nation's living marine resources. We greatly 
appreciate your support for these programs in the past and look forward 
to continued, responsible funding for these programs in fiscal year 
2006. Thank you for considering our requests.

</pre></body></html>
